<html>
<title> - IN OUR WAY: EXPANDING THE SUCCESS OF NATIVE LANGUAGE AND CULTURE-BASED EDUCATION</title>
<body><pre>[Senate Hearing 112-43]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-43

IN OUR WAY: EXPANDING THE SUCCESS OF NATIVE LANGUAGE AND CULTURE-BASED 
                               EDUCATION

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 26, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>










                  U.S. GOVERNMENT PRINTING OFFICE
67-288 PDF                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
               Loretta A. Tuell, Majority Staff Director
     David A. Mullon Jr., Minority Staff Director and Chief Counsel











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 26, 2011.....................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Franken.....................................     3
Statement of Senator Udall.......................................    25
    Prepared statement...........................................    26

                               Witnesses

Beaulieu, David, Professor of Education Policy and Community 
  Studies; Director, Electa Quinney Institute for American Indian 
  Education, University of Wisconsin-Milwaukee...................    44
    Prepared statement...........................................    46
Harcharek, Jana, Director of Inupiaq Education, North Slope 
  Borough School District, Barrow Alaska.........................    38
    Prepared statement...........................................    41
Kanaiaupuni, Shawn, Ph.D., Division Director, Kamehameha Schools.    55
    Prepared statement...........................................    58
Lasley, Sr., Larry C., Member, Meskwaki Settlement School Board..    13
    Prepared statement...........................................    15
Parker, Alvin N., Principal, Ka Waihona O Ka Naauao Public 
  Charter School.................................................    20
    Prepared statement...........................................    21
Rawlins, Namaka, Liaison, `Aha Punana Leo, University of Hawaii, 
  Hilo College of Hawaiian Language..............................     5
    Prepared statement...........................................     7
Shendo, Kevin, Education Director, Pueblo of Jemez...............    27
    Prepared statement...........................................    28

                                Appendix

Cherokee Nation, prepared statement..............................    74
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    73
Johnson, Florian Tom, Principal, Rough Rock Community School, 
  prepared statement.............................................    92
Kippen, Colin, Executive Director, National Indian Education 
  Association, prepared statement................................    78
Sheather-Wise, Taffi U`llel, Executive Director, Kanu o ka Aina 
  Learning `Ohana prepared statement.............................    90

 
IN OUR WAY: EXPANDING THE SUCCESS OF NATIVE LANGUAGE AND CULTURE-BASED 
                               EDUCATION

                              ----------                              


                         THURSDAY, MAY 26, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good morning. I call this hearing of the 
Committee on Indian Affairs to order.
    Aloha, and thank you very much, all of you for being with 
us today. On this day, we think about language and culture-
based education. I think it is only fitting to begin with an 
example of what we are trying to save, to advance and move 
forward. With that in mind, I want to set the tone for this 
hearing, and ask Namaka Rawlins of Aha Punana Leo to do an 
opening protocol in our Native Hawaiian language to open this 
hearing.
    Namaka?
    Ms. Rawlins. [Greeting and opening protocol in native 
tongue.]
    The Chairman. Aloha. Mahalo nui loa, Namaka.
    Today's hearing is called In Our Way: Expanding the Success 
of Native Language and Culture-Based Education. This hearing 
will explore the trends and achievements in Native language and 
culture-based education, identify barriers to greater success 
and key strategies to meeting student and Native community 
needs through education.
    You may know that I started my career as a young Native 
Hawaiian teacher. I worked to implement the Native Hawaiian 
perspective into the curriculum and learning environments of my 
students, because I believed that was the best way to ensure 
their success. I really believe that one way to get to these 
young people is through their culture.
    I remember with a big smile that when I was learning to 
read in Hawaii, just think the years back there, and the big 
words, big letters, and what do I read about? Snow.
    [Laughter.]
    The Chairman. And I wondered, gee, what is this? But 
anyway, that is what I mean when I say culture. In Hawaii, we 
do have snow on our mountains, but not in the villages and 
towns there. This is why I have always believed to get students 
at their roots and their culture is when we are really getting 
to the spirit of learning and education.
    It is troubling to know that of the 300 plus Native 
languages that were once spoken in this great Country that only 
175 remain. And many are at risk of being lost. Native 
languages are vital to the Native peoples to whom they belong. 
There are numerous examples of where their continued existence 
has benefitted the United States as a whole.
    As a World War II veteran, I can assure you--and there are 
just three of us left in the Senate today, Senator Inouye, 
Senator Lautenberg and I--I can assure you we learned the value 
of the Navajo language then, in World War II, and of the 
bravery of the Navajo people.
    I commend the work of many of our witnesses today. You have 
been committed and innovative in solving the challenges and 
laying a foundation for achieving academic excellence in a way 
that honors the unique Native cultures of America.
    I want to extend a special mahalo, or thank you, to all of 
those who have traveled from Hawaii, Alaska and other places in 
this Country to join us today. I appreciate your presence at 
these proceedings.
    My good friend, and I am so happy to be able to work with 
him, Senator Barrasso, I would like to ask him to make an 
opening statement. Senator Barrasso?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you so much, Mr. Chairman, for 
holding this hearing. When you start talking about your earlier 
days as a teacher, I would think that Senator Franken would 
join me in saying, you continue to be a teacher, a teacher to 
us in the Senate, a teacher to your colleagues, to any of the 
staff on both sides of the aisle, to people in this room, we 
continue to learn from you in so many ways. You talk about your 
service in World War II, we just had 104 World War II veterans 
from Wyoming here as part of an honor flight. There is so much 
to learn, for all of us.
    I just wanted to take the time to thank you and just let 
you know that you continue to be an exceptional teacher. In 
medical school they always gave the best teacher what was 
called the golden apple. Students would take an apple to a 
teacher. And I know in the Senate you would be the deserved one 
to receive a golden apple.
    So I am very, very privileged to serve with you, Mr. 
Chairman. I wanted to be here today because of the significant 
work that we all need to continue to do as we deal with the 
consideration of Indian education in the reauthorization of the 
No Child Left Behind Act. We all know that quality education is 
really a key component to any healthy and thriving community. 
It is also an area where there is, as we all know, much work to 
be done and much room for improvement.
    In the past, this Committee has received discouraging 
testimony about dropout rates, poor achievement rates, from our 
Indian students. We see that in Wyoming. According to the 
trends found in the Bureau of Indian Education report card for 
the past three years, graduation rates of Indian students 
ranged between 53 and 57 percent. Dropout rates ranged from 8 
to nearly 10 percent for the same three years.
    So we need to hear how we can close the achievement gaps 
and build upon some of the successes that have been achieved in 
Indian education. So I am happy that we are having this hearing 
today. It is important that we give attention to, and careful 
attention to those elements that support and advance academic 
achievement. All of us, Congress, the Administration, the 
tribes, the Indian education community, parents, families and 
the students themselves need to work together at improving the 
quality of Indian education and the quality of student 
performance.
    So this will have to be a collaborative effort on all 
levels. I suspect that the best ideas will be found at the 
local level. I want to thank the witnesses, I look forward to 
the testimony.
    And to you, Mr. Chairman, I just want to thank you for the 
leadership and the guidance that you have continued to show on 
this Committee and in this Senate and for this Nation as a 
tremendous teacher for all of us. Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso, thank you so much for your 
kind words. I look forward to continuing to work with you on 
this.
    Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman. In Hebrew, I 
don't know if we have a word for snow.
    [Laughter.]
    Senator Franken. I think maybe our Native Alaskans have 
more than one word.
    And I too want to associate myself with what the Vice Chair 
of this Committee said about you as a teacher. I really 
appreciate that. By the way, the word rabbi in Hebrew means 
teacher. So thank you, Rabbi, and Chairman, for holding this 
hearing. I appreciate your continuing efforts to improve 
educational opportunities for Native students.
    It is painfully clear that our current education strategies 
are not working for Native students. As Senator Barrasso was 
saying, we have all heard the statistics. Indian students 
perform below their peers in standardized tests, in reading and 
math. Approximately one out of every two Indian children fail 
to make it through high school. In Minnesota, actually, the 
high school graduation rate for Indian children is only 41 
percent.
    But there are also success stories. At the Nay Ah Shing 
school in Minnesota, students are learning about their language 
and culture, which will strengthen their school's climate and 
its ability to engage students, which we know is so important. 
Everything on the Help Committee that we have been looking at 
in terms of No Child Left Behind says that when kids are 
engaged, they do well.
    In Minnesota public schools, pre-K students in the High 
Five program spend the morning learning English and in the 
afternoon they have a Dakota or Ojibway immersion classroom. 
Over the last four years, this program has produced a 16 point 
gain in kindergarten readiness. Last night in Minneapolis, 65 
Native students participated in the Indian graduation 
celebration. It is up from 35 last year.
    We know that Indian children do better in school when they 
have opportunities to learn their language and culture. There 
are good models in Native communities across the Country that 
are producing results. It is vitally important to highlight 
these success stories, and I want to thank the witnesses for 
being here so we can learn from you. You will be teaching us as 
well.
    So I look forward to listening to your testimony on the 
strategies that work and learning what we can do to expand 
success. One of the most moving things I find when I do Native 
events in Minnesota is the drumming and the singing. It is so 
beautiful. To see these kids, in some cases pretty little kids, 
drumming and speaking in their ancestral tongue or singing in 
it, it is absolutely gorgeous. And you just can't help but go, 
like, well, of course. Of course, learning your language, of 
course, being proud of your culture, being proud of your 
heritage is going to do wonders for every aspect of your being, 
including your academic well-being. Of course.
    So thank you, Mr. Chairman, thank you, Rabbi, for today's 
hearing.
    The Chairman. Thank you very much, Senator Franken. Again, 
thank you for your kind words and I look forward to continuing 
to work with you. I of course seriously hope that I can measure 
up to the honor of being a rabbi.
    [Laughter.]
    The Chairman. Education is the foundation of all progress 
for our communities. As Native peoples, our futures are 
strengthened when we can employ educational practices that help 
our children thrive and excel. There is an old Hawaiian adage I 
think is instructive on this topic. It is, A`ohe pau ka `ike I 
ka halau ho`okahi, and it means, all knowledge is not taught in 
the same school.
    I am looking forward to hearing from the witnesses on the 
different strategies they have employed to help our Native 
students achieve and succeed, and their perspectives on how to 
expand on current successes and promising trends. We want to 
build on the basics.
    We only have limited time to conduct the hearing and 
therefore, had to limit the number of witnesses we invited. But 
as Chairman, it is my goal to ensure that we hear from all who 
want to contribute to the discussion. So we have ways for you 
to let us know how you are feeling. The hearing record will be 
open for two weeks from today, and I encourage everyone to 
submit your comments, your written testimony. I want to remind 
the witnesses to please limit your oral testimony to five 
minutes today.
    I would like to invite the first panel, and you are all 
here, and I welcome you to this hearing.
    Joining us today is Namaka Rawlins, a liaison of the `Aha 
Punana Leo of the University of Hawaii College of Hawaiian 
Language at Hilo. Larry Lasley is a member of the Meskwaki 
Settlement School Board in Tama, Iowa, where the tribe operates 
a BIE school.
    Alvin Parker is the principal of Ka Waihona o ka Na`auao 
Public Charter School in Waianae, Hawaii. Our fourth panelist 
is Kevin Shendo, the Education Director for the Pueblo of Jemez 
in New Mexico. So again, welcome to all of you.
    Ms. Rawlins, please proceed with your testimony.

    STATEMENT OF NAMAKA RAWLINS, LIAISON, `AHA PUNANA LEO, 
            UNIVERSITY OF HAWAII AT HILO COLLEGE OF 
                       HAWAIIAN LANGUAGE

    Ms. Rawlins. Mahalo. Chairman Akaka, Vice Chairman 
Barrasso, Senator Franken and members of the Committee on 
Indian Affairs, my name is Namaka Rawlins. I am past Executive 
Director of `Aha Punana Leo, served as Chairperson of the 
Native Hawaiian Education Council, and just recently completed 
my term as board member of the National Indian Education 
Association.
    Today I represent the `Aha Punana Leo Language Nest and Ka 
Haka `Ula O Ke`elikolani, Hawaiian language college at UH Hilo. 
Together, these entities, with laboratory school programs, 
represent Hawaii's P-20 vertical alignment of Hawaiian Language 
Medium education system. It is the most developed program in a 
Native American language. P-20 refers to an education pipeline 
from early childhood through the doctorate. Our successes 
include 100 percent graduation rate and 80 percent college 
enrolment, due to the rigorous academics of our program.
    It is an honor to testify before you on Native American 
education with a particular emphasis on the crucial role of our 
Native American languages and cultures in the education of 
Native Hawaiians, American Indians and Alaska Natives. It is 
also an honor to be here with my colleagues from our National 
Coalition of Indigenous Language and Culture-Based Education 
Research Group. My full testimony is provided. I will highlight 
a few things.
    There is overwhelming support in Native American 
communities throughout the Country to revive and restore long-
suppressed native languages and cultures to the children of 
those communities. Those languages are crucial to Native 
American literature, ceremonial life, spirituality, kinship 
practices and overall indigenous identity.
    It is possible to restore these languages to communities to 
assure the continuity of Native American identity and to 
bolster the academic achievement and college and career 
readiness of Native students. There is much research on the 
effectiveness of immersion as a language teaching methodology. 
Immersion is not only the most effective method of restoring 
Native languages, it is also a most effective program 
academically for Native American children. Well-established 
Native American language immersion programs currently exist in 
Arizona, Montana, Wyoming, Oklahoma, New York, Minnesota, 
Wisconsin, Montana, Oregon, Alaska and Hawaii. Lakota-speaking 
tribes in North and South Dakota and others have started 
immersion projects or are working to do so.
    Senator, the Native American Languages Act, NALA, was 
passed in 1990, over 20 years ago, with policies and provisions 
that assure Native American language-speaking children the 
right to use their languages in federally-funded public 
education. These provisions are absent in the No Child Left 
Behind Act. It is crucial that the most egregious conflict 
between NALA and No Child Left Behind relative to our highly 
endangered Native American languages be eliminated now.
    The harshest barriers to Native American immersion are in 
Title I, as they relate to testing and teacher qualification, 
disregarding the distinctiveness of Native American language 
immersion. The results of measures of student performance in a 
language other than the language of instruction threaten our 
programs and force them to abandon immersion prematurely. Fear 
of Title I is what prevents many programs from even starting.
    I ask that you consider allowing our consortium in Hilo to 
serve as a federally-mandated center for excellence for any 
school that meets the definition of a Native American language 
nest or a Native American language survival school, to serve 
parallel to a State education agency for the U.S. DOE. It would 
be an option for these schools. It would build on our existing 
national coalition of indigenous language and culture-based 
education network of researchers and practitioners in Native 
American language immersion and culture-based schools. The 
center will support highly-qualified language schools and 
highly-qualified teacher programs, opening the doors for other 
Native communities.
    Through the U.S. policy and support of Native American 
languages, NALA in 1990, we were able to create programs to 
support immersion and Native American languages and demonstrate 
academic success through language programs. Thank you for that 
opportunity.
    Now we ask that you further provide us empowerment by 
creating this center for excellence, so we can share with the 
Nation our model of academic success and its proven impact on 
Native student achievement. This concept is aligned with the 
Obama Administration's educational blueprint in support of 
Native American language education. It solidifies the U.S. 
endorsement of the United Nations' Declaration of the Rights of 
Indigenous Peoples. That document includes numerous references 
to the rights of indigenous peoples, such as Native Americans, 
to continue education in languages, culture and traditions 
which are proving to have positive impacts academically on our 
children. We need support for changing Federal education 
legislation, to make access to quality education through Native 
American languages a reality, as an educational optional for 
all Native Americans throughout the United States, based on the 
proven successes of our model.
    Mahalo.
    [The prepared statement of Ms. Rawlins follows:]

    Prepared Statement of Namaka Rawlins, Liaison, `Aha Punana Leo, 
        University of Hawaii, Hilo College of Hawaiian Language

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mahalo nui, Ms. Rawlins.
    Mr. Lasley, please proceed with your testimony. May I say 
that all of your full testimony will be included in the record. 
Mr. Lasley?

STATEMENT OF LARRY C. LASLEY, SR., MEMBER, MESKWAKI SETTLEMENT 
                          SCHOOL BOARD

    Mr. Lasley. Chairman Akaka and distinguished members of the 
Committee, thank you for this opportunity to provide testimony 
on a topic critical to the Meskwaki people. My name is Larry 
Lasley, and I serve on the Meskwaki Settlement School Board.
    I am here today because our language is our identity, and 
our language is dying. Like many of my people, I am concerned 
about the dwindling number of fluent Meskwaki speakers on our 
settlement. Today fewer than 16 percent of tribal members 
identify themselves as fluent in Meskwaki. The vast majority of 
these fluent speakers are over the age of 50. Virtually no 
tribal members under the age of 40 are fluent in our Native 
language.
    For this reason, we are implementing a program to more 
aggressively halt this language loss. Since the early 1980s, we 
have supported a language and culture program in our school 
authorizations. However, the program remains more of a special 
project than an essential part of our education curriculum.
    Today, we seek to apply a language and culturally based 
curriculum on a much broader scale, so that our students may 
perform at higher levels of academic achievement. To that end, 
we believe the Committee should prod the Government to act in 
several areas that would assist tribes in implementing language 
and culture preservation programs.
    First and foremost, we feel the Committee should support 
culturally-based education best practices and language 
immersion in early childhood education. In addition, we 
recommend the Federal Government take the lead in developing a 
centralized repository of knowledge, something akin to the 
Harvard Project on American Indian Economic Development. 
Storing fact-based material, proven methods and documented 
experience in one central repository would permit tribes to 
immediately access reliable, evidence-supported data for their 
language and cultural programs.
    Next, language revitalization requires technical expertise 
that tribes may lack. The Government should assist tribes in 
establishing capacity in a host of areas, including 
linguistics, documentation, data collection and analysis to 
ensure an effective approach to language preservation. 
Moreover, the Government should partner in the design of a core 
culturally-based curriculum that could be modified to meet the 
specific needs of any tribe.
    Third, a particularly important area for capacity building 
is teacher training. The skill set for teaching a language like 
Meskwaki to second language learners is not an innate ability, 
but rather, a learned set of skills. Native language speakers 
require advanced training to become successful teachers. This 
training must be rooted in Research and evidence-based 
instructional practices.
    Fourth, teachers must meet certain requirements to be 
certified, such as the highly qualified requirements found in 
No Child Left Behind. However, in Indian Country, these 
requirements may undermine schools' ability to employ Native-
fluent speakers as teachers. We recommend the Government 
mandate a policy to enable tribes to establish their own 
requirements for Native language teachers. Those best qualified 
must be able to teach these vital subjects.
    Finally, tribal language programs have dozens of 
initiatives that must be implemented to reestablish a safe 
state of the language and culture. These initiatives require 
significant resources; resources that are too often lacking in 
tribal economies where scarce necessities such as clean water, 
health care, care for our elders, public safety and other 
priorities, must make the priority. We are dedicated to 
preserving our language and our cultural heritage. We seek to 
strengthen our spiritual connections to our Creator, to renew 
our ties to our ancestors and to provide this uniquely Meskwaki 
gift to our descendants.
    To this end we value bi-cultural education and intend to 
maintain high standards for both the education and evaluation 
of our youth. We also intend to implement research-based 
approaches in language and culturally-based learning to best 
position our students for success. We believe these initiatives 
will strengthen our tribal nation and enhance our ability to 
contribute to the American story, as our history always has.
    However, we cannot implement these initiatives on our own. 
While the programs must be driven by tribal leaders, we believe 
the Government can and should play a meaningful role in their 
design and implementation. We appreciate the Committee's 
interest in preserving our Native languages and look forward to 
working with you in this regard.
    [Expression in native tongue.] Thank you.
    [The prepared statement of Mr. Lasley follows:]

Prepared Statement of Larry C. Lasley, Sr., Member, Meskwaki Settlement 
                              School Board
    Chairman Akaka, Vice Chairman Barrasso and distinguished Members of 
the Committee, thank you for this opportunity to provide testimony on a 
topic critical to the Meskwaki people. My name is Larry Lasley, and I 
serve on the Meskwaki Settlement School Board, which oversees our 
Tribe's Settlement School, a BIA grant-funded school serving students 
from early childhood through the 12th grade. I am also the Tribe's 
Economic Development Director, a position which uniquely qualifies me 
to address the importance of educating our young people.
    I come before you today to speak on the significance of an 
education rooted in our traditional language and cultural values. Like 
many of my people, I am concerned about the dwindling number of fluent 
Meskwaki speakers on our Settlement. With each passing generation, 
fewer of our tribal members possess the ability to converse in the 
language provided by our Creator. This situation threatens to 
extinguish our language from our Settlement. Such a loss of language 
would carry profound and tragic consequences for my people. For this 
reason, our tribe is acting aggressively to stop this language loss, 
implementing programs in our school and our community to the best of 
our abilities. Without this concerted intervention, our youngest fluent 
speakers will soon be too old to effectively teach the Meskwaki 
language to a new generation.
    Over the past decade, we have implemented two comprehensive surveys 
of our Tribal members to better understand the status of the Meskwaki 
language on our Settlement. According to these surveys, the 1960s 
marked the beginning of a language shift--one which continues to this 
day. When I speak of language shift, I speak of a shift away from the 
heritage language of Meskwaki and a strengthening of the English 
language among my people. In essence, fluency in English began to 
replace fluency in Meskwaki. As a result, each subsequent decade since 
the 1960s has yielded decreased fluency among tribal members; now, 
unfortunately, it has advanced to the point where our children are not 
mastering the Meskwaki language. More troubling, this language shift 
has undermined the Tribe's very ability to teach our children our 
native tongue.
    The most recent survey, conducted during the tribal membership 
audit of 2010, found that only 16 percent of tribal members identify 
themselves as ``fluent'' in the Meskwaki language. On the other hand, 
63 percent said they understood only a few words or no words at all. 
While it is fortunate that almost all tribal members (90 percent) 
understand something of the language, the age distribution of these 
figures exhibits the critical situation we face. The majority of fluent 
speakers are 50 or older. Virtually no tribal members under the age of 
40 are fluent in the Meskwaki language.
    These facts carry profound implications for the strength of the 
Meskwaki nation. Our language is a key component of our identity. It 
provides an important link to our history, our story, our spirituality. 
Our language is integral to our way of life and to our sovereign 
identity. Alarmingly, our language is in peril.
The Importance of the Meskwaki Language
    For our people, the Meskwaki language is a gift from the Creator. 
We know that this language is the only language that our deities use. 
This is the language that our souls know--this is the language we are 
meant to use from the time we are born until we journey on to the next 
world. The Meskwaki language is central to our identity--it carries the 
most meaningful and deepest levels of our selves. It carries our 
spirituality, our religion, our connection to the Earth, and our 
connections beyond the continuums of time and space.
    Our language provides an important connection to our Creator and to 
the other spirits we know. These connections must never be broken, as 
to be broken from those spirits is to experience the end of all things. 
Similarly, our connections to our past--our ancestors--and our future--
our descendants--serves as another key tenet of our spirituality. Our 
language is a key tie that binds those connections for all time. The 
loss of our language threatens these sacred ties.
    Even today, the Meskwaki culture permeates our daily life, from the 
food we eat, to hunting and gathering, to harvesting, clothing, and 
home making. Our games, songs, athletics, and dances incorporate our 
tribe's original cultural attributes. Our kinship system, a critical 
component of our way of life, is not anything like that of mainstream 
Western culture. To be a part of the Meskwaki tribe means being 
responsible to family and extended family, to the clans, the leadership 
systems, and the unique duties each of these roles are given. Most 
important, all of our cultural attributes and the resulting thought 
processes, feelings and ideas are uniquely Meskwaki. As such, they 
cannot be equated or fully expressed in any language other than the 
Meskwaki language.
    Languages vary from society to society, and often the meanings and 
implications of statements cannot be simply translated. When 
translations occur, critical knowledge and meaning becomes lost or 
lessened. These interruptions in the continuum of language, culture, 
spirituality, religion, and understandings cause disruptions in our 
social wellbeing. Our people have naturally suffered for generations 
from the unfortunate events in our history. The disconnection from 
culture, language, and spirituality makes recovery even more 
challenging for many of our people--as individuals, as families, and as 
a tribe.
    For our nation to be successful, we must keep an open connection to 
our past, our future, our spiritual beliefs, and our cultural ways. Our 
tribe needs the freedom to remain who we are and preserve our identity. 
We hope to be afforded a chance for survival. But it will not be 
possible for the Meskwaki people to endure with broken pieces. Without 
our language and culture, we will perish.
Challenges to a Language-Based Curriculum
    As a Tribe, we have prioritized the education of our young people 
as a critical piece of our strategic development. To this end we value 
bicultural education and intend to maintain high standards for the 
education and evaluation of our youth. We also intend to implement 
proven research-based approaches on language and culturally-based 
learning in an effort to best position our students for success.
    Since the early 1980s the Tribe has supported a language and 
culture program within school operations. However, the program remains 
more of a special activity than an essential element of our education 
curriculum or a tribe-wide mandate. We desire to apply a language and 
culturally-based curriculum on a much broader scale--along the lines 
that have been expressed by tribal people and educational professionals 
alike--so that our students may progress and perform at higher levels 
of academic achievement. Implementing this ambitious agenda, while 
critically important, remains difficult.
    To this end, we have secured grant funding to develop a tribal-wide 
language preservation program. Our language coordinator has begun 
holding language roundtables three times a week--sessions that bring 
together Meskwaki speakers and learners. We have begun to develop 
technologies to support classroom instruction and independent studies. 
Still, additional training and support is needed to build the capacity 
to teach the Meskwaki language. As the tribe is the sole tribe in 
Iowa--and as Indigenous languages are particularly difficult to learn--
language instruction proves especially challenging.
    We must connect our tribal-wide language preservation program with 
our schools. This effort will prove especially challenging with the 
approximately 310 Meskwaki students that attend the public school 
system. However, the Committee could help remedy this situation by 
supporting culturally-based education best practices and language 
immersion in early childhood education.
    With regard to challenges to language programming, we have 
identified the following:
I. Timely Access to Supporting Information
    Currently, there is helpful information available to tribes who are 
just starting out with building language revitalization programs. 
However, this trend of creating programs is still relatively new and is 
being enacted by tribes, who almost always have restricted resources. 
As a result, access to the most helpful information is limited. There 
is not an overabundance of information--and much of the information is 
not directly on point. One must first locate the information, which is 
somewhat of challenge when first starting out, and then the useful must 
be separated from the useless.
    We believe funding allocated toward a centralized repository of 
knowledge--something analogous to the Harvard Project on American 
Indian Economic Development--would benefit all tribes, as tribes need 
their culture, language and identity as much, if not more, than 
economic development. Fact based material, proven methods and 
documented experience all in one central repository would both save 
time and money for all new and existing language programs.
    The very nature of language loss essentially means that there is a 
limit in the number of years in which a solution can be completely 
implemented. Language loss can occur in little as one generation. The 
information that we need in order to be successful must be available to 
us immediately, it must be supported by evidence, and it must be 
reliable. Government support for a centralized repository for such 
research would be of great assistance to all tribes.
II. Funding for Tribal Language Programs
    Language Revitalization is an expansive and expensive project that 
attempts to halt the shift away from the native language. Tribal 
Language Programs have dozens of initiatives that must be implemented 
in order to reestablish a safe state of the language and culture, 
including staffing, education, documentation, equipment, and teacher 
training. These initiatives require significant resources, resources 
that are too often lacking in tribal economies where scarce necessities 
such as clean water, access to health care, care for our elders, public 
safety and other essential services must take priority.
Staffing
    Tribal language programs have myriad tasks to accomplish. Common 
goals necessary for success in any tribal language program include: 
Assessment of the Language (surveying or thinking groups), 
Documentation, Program Planning, Community Building, Teacher Training, 
Understanding Second Language Acquisition, and Establishing Educational 
Systems that include Cultural Standards and Culturally Based 
Curriculum. Many of these tasks lend themselves to a standardized 
approach. By assuming a lead role in identifying the best practices in 
applicable areas, the Federal Government could substantially lessen the 
burden of designing and implementing these initiatives. Moreover, as a 
repository of such practices, the government could provide training in 
order to establish and enhance Tribes capacities to successfully 
operate language preservation programs.
Education
    Similarly, the federal government should assist tribes in 
establishing capacity in the areas of linguistics, data collection and 
analysis, language teaching, second language acquisition, community 
building and curriculum design to ensure an effective and focused 
approach to language preservation.
Documentation
    Language Revitalization cannot have instantaneous results. 
Therefore, one key priority in all language programming must be to 
preserve the existing cultural knowledge. This preservation is referred 
to as Documentation. Language and Cultural Documentation is critical 
for future reference and often relies on the leadership of tribal 
elders.
    Documentation as a linguistic data collection activity can take 
years. It can include thousands of pages of transcriptions, hundreds of 
hours of video and audio recording, dozens of hours of cataloguing, and 
ample media to collect and store such information. While documentation 
is time consuming, utilizing state of the art technologies can reduce 
the time and expense associated with these activities. The Federal 
Government should work to ensure that Tribes have access to these 
technologies as well as to properly trained staff to provide support to 
these efforts.
Equipment
    As noted above, a basic amount of equipment is necessary to 
accomplish many of the goals of language programming. Setting up a new 
department is difficult to fund, and modern equipment required for such 
things as Documentation can become costly. Equipment needs include 
printing capabilities for large numbers of booklets, handouts, and 
awareness building materials for community building. Computers are 
required for daily tasks as well as long-term projects such as 
surveying, documentation, and training. Native language teaching and 
learning materials are often made from scratch by program staff and 
language teachers. Creating language learning resources often requires 
the capabilities of creating graphics, printing large documents, and 
lamination or other finishing.
Training for Teachers
    The skill set for teaching a language like Meskwaki to second 
language learners is not an innate ability, but rather a learned set of 
skills. Native language speakers must be trained in order to become 
successful teachers. Due to the unique methods of teaching Native 
languages, training often requires travel or immersion--which is not 
widely available in local areas.
III. Mandate State Support of Tribal Language Programming in Schools
    In every state, teachers must meet certain requirements before 
being certified as a teacher, with good reason. However, in Indian 
Country these requirements may undermine the ability of schools to 
employ native fluent speakers as ``teachers.'' Too often, such native 
speakers receive lower pay and a lower status in the school as a result 
of the failure to meet certain requirements.
    This poses a dilemma, as there are a limited number of speakers, 
and therefore there are only a limited number of people who can teach 
the native language. Moreover, the likelihood of a native fluent 
speaker pursuing a teaching certificate is significantly lowered by the 
aging population of fluent speakers and by the unique lifestyle and 
belief systems of tribal people.
    Some states have passed amendments to allow for tribes to establish 
their own requirements for certifying a ``Native Language Teacher.'' 
This type of amendment must be made available for the benefit of every 
tribe. We recommend the Federal Government mandate such a policy across 
the board. The presence of Native Language Teachers is essential to 
allowing the Native Languages to be taught to students.
    For example, although the Settlement School seeks to employ Native 
Americans, primarily enrolled tribal members and descendants who are 
speakers and have knowledge of the Meskwaki culture, the ``Highly 
Qualified'' requirements in NCLB impede the ability to fill positions 
with Tribal members. If these ``Highly Qualified'' requirements are not 
addressed, funding will be needed to send tribal members to school to 
seek further certification and to create a local certification and 
training program for Tribal and community members so that they can gain 
employment in the school and support our Meskwaki language and culture 
programs.
IV. Assistance and Support for Culture-Based Standards and Curriculum
    We have a great need for educational standards and curriculums both 
in the school and our community. Standards would put into effect a 
minimum amount of tribal, traditional, linguistic, and cultural 
knowledge among each learner, each student, and each community member. 
This is an overwhelmingly enormous task that requires the involvement 
of traditional elders, experienced educators, and program planners. 
Tribes are short on the number of fluent speakers who are experienced 
in the areas of education, standards and curriculum design--let alone 
teaching language and culture in a classroom environment. Culture 
teachers are often not trained teachers, so they have limited access to 
courses and even less access to courses specific to Native language and 
culture instruction. We have found traditional methods are no longer 
effective enough to push and revitalize the language. Therefore, 
language and culture teachers need advanced and state-of-the-art 
training-training in research-based instructional practices and 
evidence-based practices like in differentiation of instruction and 
sheltered instructional practices.
History of the Meskwaki Language
    As demonstrated below, the Meskwaki language is tied to and 
integral in the history and life of our Tribe and our Nation. Our 
language falls into the Algonquian language family, one of the five 
major language families into which the majority of North America's 
Indigenous languages can be categorized. Algonquian is not a tribal 
name or identification, but rather the name of the language family 
itself.
    1800s--Reservation era: The Federal Government established the Sac 
and Fox Reservations in Kansas and Oklahoma. While some of our 
relatives went to the Sac and Fox reservations, a small bunch, refused 
to be placed on the reservations. This group of Meskwakis wished to 
settle and remain along the Iowa River--lands that more closely 
resembled the home we once had. The tribe gathered and pooled their 
resources to purchase its first 80 acres of land in 1856. By 1857 our 
agreement with the State of Iowa was firmly in place to be established 
as a tribal group, owning land in common. Each parcel of land was 
subsequently purchased with common funds. The land that was purchased 
was bought with the tribe's primary priority in mind-the well being and 
livelihood of our people. The purchase of land in common serves as 
evidence of our unity as a tribe, our sense of community, and our 
reliance upon one other for the benefit of the whole. Through this 
period, our language and cultural practices served as both unifying and 
motivating factors.
    1880s--Emergence of the Written Meskwaki language: Earliest 
documented use of reading and writing.
    1900s--Boarding Schools: Our people were subject to the boarding 
school era--many of our surviving elders were sent to boarding schools 
as children and forced to abandon their usage of the Meskwaki language. 
They were compelled to speak English and faced physical and verbal 
abuse for the use of the Native tongue. Despite this treatment, or 
perhaps in part because of it, the Meskwaki language remained a vibrant 
and integral part of our Tribal community.
    1900s--Linguistic Studies: Franz Boas and Leonard Bloomfield, two 
of history's most influential linguists, conducted some of the first--
as well as the most important--studies on the various Algonquian 
languages, Meskwaki included. Their works serve as the baseline to any 
further study of Algonquian languages and have contributed substantial 
knowledge to the linguistic analysis of Meskwaki. In the early 1900s a 
Meskwaki linguist by the name of William Jones, himself a disciple of 
Franz Boas, conducted further study on his language--advancing the 
understanding of the importance of the language relative to the 
Algonquian family. In furtherance of this work, the Bureau of American 
Ethnology commissioned a year-long study of Meskwaki language and 
culture, collecting thousands of pages of data on the Meskwaki language 
and way of life. These studies reflect the amount of interest in the 
Algonquin languages--particularly Meskwaki--and provide an important 
historical baseline.
    1940s--Language in Service of the United States: 16% of our Tribal 
members enlisted in the Army in the wake of Pearl Harbor. Ultimately 8 
Members of the Tribe were recognized by Congress for their contribution 
to the war effort as Code Talkers. Relying on our unique language, 
these Meskwaki helped successfully direct efforts against the Germans 
in North Africa.
    1940s-1980s--Infrastructure Enters the Meskwaki Lifestyle: The 
Meskwaki were selfsufficient and self-sustaining in the days of hunting 
and gathering and the days of freedom of migration. However, by 
purchasing our land in Iowa, and therefore committing to this location, 
we surrendered to the reality of our new lifestyle and its limitations. 
To gain water, food, materials, sanitation, housing, and other 
resources, increasingly we were forced to utilize the English language. 
As this increasing utilization of the English language grew, the tribe 
experienced, perhaps inevitably, a decrease in the use of Meskwaki.
    1990-2000s--Linguistic Studies--A Growing Appreciation of the 
Meskwaki Language: Many prominent contemporary linguists have 
conducted, and continue to conduct, analyses of the Meskwaki language. 
For many of these scholars, the Meskwaki language holds a special 
mystique among the Algonquian languages. In a 2008 Culture Symposium at 
the Meskwaki Settlement, Dr. Amy Dahlstrom explained the Meskwaki 
language's significance to linguists. Often linguists compare the 
distinct languages within a language family for their similarities in 
an effort to trace them back to the original language, or a ``proto'' 
language. Dr. Dahlstrom explained that of all Algonquin languages, the 
Meskwaki language is most similar to the Proto-Algonquian language. 
This implies that over the past 200 plus years of history, the Meskwaki 
language has changed the least from its original form. So there lies 
special significance of this language as to why it didn't change, a 
particular link to our ancestors who spoke the Meskwaki language much 
as it is today, and important potential insights as to why other 
Algonquian languages deviated more from the original proto-language.
Conclusion
    Like many of our fellow Tribes we have dedicated ourselves to 
preserving our language and our cultural heritage. In so doing, we seek 
to strengthen our spiritual connections to our Creator, to renew our 
ties to our ancestors and to provide this uniquely Meskwaki gift to our 
descendants. We believe these initiatives will strengthen our Tribal 
nation and enhance our ability to contribute to the American story as 
we have throughout our history. While the programs must be driven by 
Tribal leaders, we believe the federal government can play a meaningful 
and constructive role in their design and implementation. On behalf of 
the Meskwaki Tribe, thank you for the opportunity to present our 
thoughts in this regard.
    This concludes my prepared statement. I welcome any questions you 
may have.

    The Chairman. Thank you very much, Mr. Lasley.
    Mr. Parker, will you please proceed with your statement?

STATEMENT OF ALVIN N. PARKER, PRINCIPAL, KA WAIHONA O KA NAAUAO 
                     PUBLIC CHARTER SCHOOL

    Mr. Parker. Aloha, Chairman Akaka and Committee members. My 
name is Alvin Parker, and I am the Principal of Ka Waihona o ka 
Na`auao Public Charter School, which is located on the Waianae 
Coast, the western side of the Island of Oahu.
    The school is situated in an economically depressed 
community that is predominantly Native Hawaiian or part 
Hawaiian. The Waianae community, as many Native American 
communities, has experienced rapid alcohol, sexual and 
substance abuse, early teen pregnancy, a large percentage of 
Native Hawaiians incarcerated, and the disintegration of family 
and Native Hawaiian values due to these social maladies.
    The mission of Ka Waihona o ka Na`auoa is to create 
socially responsible, resilient and resourceful young men and 
women by providing an environment of academic excellence, 
social competence and cultural awareness. This environment 
offers a moral compass molded by the students' early 
experiences with Native educators who understand and pass on 
all that is good in our Native cultural values.
    The school has purposefully sought out highly qualified 
Native Hawaiian educators who come from the community. Of the 
school faculty members, 63 percent have advanced degrees and 20 
of 41 members are graduates of the Kamehameha Schools. Ka 
Waihona thrives on the premise that this type of role modeling 
empowers the student body to believe that they can achieve, and 
that all things are possible.
    Ka Waihona embraces a curriculum that is academically 
rigorous and culturally sensitive. The school is in good 
standing with the No Child Left behind Federal mandate and has 
made annual yearly progress for four of the last six years. Ka 
Waihona embeds cultural values in everyday education by 
displaying visual prompts in the classrooms and referencing 
them consistently. These Native values include Ho`ihi, be 
respectful, Kuleana, be responsible, Malama, be safe, Ha`aha`a, 
be humble, Lokahi, unit, and Ho`omau, persevere.
    Students also participate in a host of cultural vents and 
activities throughout the school year. These include honoring 
the Native rulers of the past at the royal mausoleum, 
displaying their knowledge in a cultural show for the 
community, participating in a day of festivities which include 
activities ancient Hawaiians conducted on a daily basis for 
survival, weekly hula lessons, daily Hawaiian language lessons 
for the middle school students and a daily school-wide protocol 
that includes Native Hawaiian chants and songs.
    Ka Waihona is founded on the belief that exposing the 
students to Native Hawaiian values and offering them 
opportunities to participate in the culture is imperative to 
their social maturation. The exposure and substantive support 
by the faculty to make these values a part of everyday lessons 
and behavior expectations is integral to the school's approach 
to education and ultimately the school's mission.
    The combination of a cultural component and intensely 
rigorous academic curriculum provides the students with a solid 
base that allows them social mobility that is often not a 
reality for Native Hawaiians. Education, whether it be cultural 
or academic, plays a vital role in nurturing and sustaining our 
Native people.
    Finally, I would like to thank Senator Daniel K. Akaka for 
extending the invitation to provide testimony on this important 
subject. Senator Akaka embodies all that is good and possible 
for Native Hawaiians and part Hawaiians. His leadership in the 
United States Senate has set a precedent for indigenous people, 
and I believe every Hawaiian and part Hawaiian says Mahalo to 
Senator Akaka.
    Thank you.
    [The prepared statement of Mr. Parker follows:]

   Prepared Statement of Alvin N. Parker, Principal, Ka Waihona O Ka 
                      Naauao Public Charter School
    Ka Waihona o ka Naauao (KWON) is located on the Wai`anae Coast, the 
western side of the island of O`ahu. The Wai`anae community, as many 
Native American communities, has experienced rampant alcohol, sexual 
and substance abuse, early teen pregnancy, a large percentage of Native 
Hawaiians incarcerated, and the disintegration of family and Native 
Hawaiian values due to the above listed social maladies. The mission of 
Ka Waihona o ka Na`auao is to create socially responsible, resilient 
and resourceful young men and women by providing an environment of 
academic excellence, social confidence and cultural awareness. Because 
of this, KWON embraces a curriculum that is both academically rigorous 
and culturally sensitive.
    KWON houses opened ten years ago in an educationally altered 
chicken coop with 60 students in grades kindergarten through three. 
Currently, there are 572 students in 24 classrooms in grades 
kindergarten through eight on a traditional school campus. Of our 
students, 93 percent are Native Hawaiian and 62 percent are 
economically disadvantaged. Each class has an educational assistant in 
addition to a classroom teacher which allows for a lower student-
teacher ratio and more effective classroom management. KWON provides a 
core curriculum of language arts, social studies, science, and math 
along with resource courses that include music, art, language, physical 
education, and culture.
    The school is in good standing with the No Child Left Behind 
federal mandate and has made Annual Yearly Progress for four of the 
last six years. KWON's founder formed the school with the strong belief 
that education is the most effective way to remedy the maladies of a 
community. This belief is at the heart of the school's efforts to 
foster a more community inclusive form of education, an integrated 
curriculum, and an academically rigorous educational experience, along 
with measurable outcomes set at the highest standard. KWON offers a 
schooling experience that is a viable alternative to the existing 
conventional public school model. KWON is structured to be responsive 
to the learning styles, cultural values, and future desires of the 
families of the community. It emphasizes a caring, collaborative 
environment for all persons within the school community. This includes 
students, teachers, parents, staff, volunteers, and community members 
who, together, implement an effective and relevant educational 
experience.
    KWON is founded on its Na Mea Waiwai or Core Values: Ho`ihi 
(respect), Kuleana (responsibility), Malama (safety), Ha`aha`a 
(humility), Lokahi (unity), and Ho`omau (perseverance). A set of 
posters displaying these school values is displayed in every room on 
campus to allow for easy reference and frequent discussion. The 
exposure and substantive support by the faculty to make these values a 
part of everyday lessons and behavior expectations is integral to the 
school's approach to education and ultimately the school's mission. 
Students participate in a host of cultural activities throughout the 
school year. These include honoring the native rulers of the past at 
the Royal Mausoleum (burial place), displaying their knowledge in a 
cultural show for the community, participating in a day of festivities 
which include activities ancient Hawaiians conducted on a daily basis 
for survival, weekly hula classes, daily Hawaiian language classes for 
middle school students, and a daily schoolwide protocol that includes a 
variety of Native Hawaiian chants and songs including Hawaii Ponoi, our 
state song. KWON exposes students to native Hawaiian values and offers 
them opportunities to participate in a culture which is beneficial to 
their social maturation. The combination of a cultural component and an 
intensely rigorous academic curriculum provides the students with a 
solid base that allows for a social mobility that is often not a 
reality for native Hawaiians. Education, whether it be cultural or 
academic, plays a vital role in nurturing and sustaining our native 
people.
    KWON's Hawaii State Assessment scores have steadily improved since 
the school's first taking of the HSA in 2005. In the most recent state 
assessment data (2009), where 300 is passing, KWON scored a 303 in 
reading and a 288 in math. This is an improvement from 296 in reading 
and 280 in math in 2008. KWON was able to meet AYP this year and is now 
in School Improvement Year One, Good Standing, due to the consistent 
gains in each class and grade level, especially in mathematics. This is 
remarkable considering only one other public school in the district met 
AYP. The surrounding community's schools house eight of the 10 lowest 
scoring schools in the state. The schools in the same district have 
consistently struggled to make gains on state tests. In SY 2009-2010, 
KWON met the school's goals set in SY 2008-2009. KWON moved 10 percent 
of students in each reading standard up to higher standard by moving 8 
Students move from Well Below standard to Approaching standard, 6 
Students move from Approaching standard to Meets standard, and 11 
Students move from Meets standard to Exceeds standard. We were also 
able to move 10 percent of students in each math standard up to higher 
standard by moving 12 Students move from Well Below standard to 
Approaching standard, 7 Students move from Approaching standard to 
Meets standard, and 6 Students move from Meets standard to Exceeds 
standard. All teachers use the same assessments and are using the data 
from those assessments to drive instruction.
    KWON implements Guided Reading Groups and Literature and Inquiry 
Circles in grades Kindergarten through eight. KWON supports these 
Guided Reading Groups and Literature and Inquiry Circles with a number 
of Big Books, Shared Reading Kits, Internet Sources through SmartBoards 
and other technology rich sources, the Accelerated Reader Program (a 
daily progress monitoring software assessment for monitoring the 
practice of reading), STAR Reading (standardized computer adaptive 
assessment) from Renaissance Learning (which works hand in hand with 
Neo IIs and Notebook software), A to Z Readers (materials to teach 
guided reading, phonemic awareness, reading comprehension, reading 
fluency, alphabet, and vocabulary through professionally developed 
downloadable leveled books, lesson plans, worksheets, and reading 
assessments), Leveled Reading Libraries for grade levels K-8, and many 
Hawaiian culture books, which assist in teaching our curriculum's 
cultural component.
    All teachers, parents, and students sign an annual school compact 
and middle school parents stay in close contact with instructional 
staff through the TeacherEase program. The middle school implements 
Teacherease, which systematized our 7th and 8th grade classrooms 
through standards-based lesson plans, curriculum mapping, gradebooks, 
report cards, and parent communication/access. The website enhances 
teacher collaboration and improves communication between 
administrators, teachers, parents, and students. We also use the 
portion of the system that provides demographics, attendance, and 
scheduling assistance. The various supports for KWON students include 
the following: in class technology tutoring through Accelerated Reading 
and Math, Reading Fluency Software, skill specific online programs, 
daily grade updates and communication with parents, counseling 
services, and Title I and IDEA support. Kindergarten through sixth 
grade employs a Standards Based report card.
    During instruction, lower elementary teachers focus on phonemic 
awareness, phonics, and differentiation with pre-decodable and 
decodable books. KWON employs Small Group Instruction through Guided 
and Shared Reading on a daily basis. Teachers also use listening 
centers, Author's Chair, and Reader's and Writer's Theatre daily as 
another teaching strategy that easily allows for differentiation. 
Literature and Inquiry Circles are used for focused critical thinking 
sessions to introduce and break down new material and allow students to 
learn from one another through collaborative groups. Middle and upper 
elementary teachers create project-based, interdisciplinary, 
independent research projects in order to promote non-fiction reading 
and writing, internet familiarity, and independent work. Science, math 
and reading journals are conducted daily in classrooms. Students also 
work in small groups using strategies such as role playing, think/pair/
share, and jigsawing.
    Teachers differentiate using multi-sensory, multiple intelligence 
lessons in order to engage each student in the classroom. Teachers also 
differentiate according to student ability using skill specific work 
they have created or by using differentiated items provided by KWON's 
curricular programs. Formative assessments are employed frequently in 
the form of self-assessment and goal setting, peer assessments, 
observations, reviews, summarizing, and exit cards.
    KWON uses software and online programs such as Lexia, My Reading 
Coach, Reading Plus, and Fluent Reading Trainer as supplemental 
supports for students in order to instruct in a differentiated, skill-
specific format. These programs are scientifically proven and data 
driven allowing students to be frequently assessed and support students 
until mastery. Teachers are able to access assessments and further 
drive instruction through worksheets and 1:1 or small group 
instruction. The programs are designed to support students experiencing 
difficulty with reading. In addition, low achieving students 
participate in one-to-one sessions with teachers and educational 
assistants using skill specific, leveled readers, computer programs, 
and manipulatives. During the summer prior to kindergarteners beginning 
school at KWON, students attend a mandatory session in which teachers 
assess students and meet with parents in order to introduce the entire 
family to KWON's expectations.
    Singapore Math is implemented in grades kindergarten through eight 
as a core math curriculum. Singapore Math's method of teaching 
mathematics is based on textbooks from the national curriculum of 
Singapore. It is based primarily on time-tested traditional mathematics 
instruction methods. Singapore Math frequently uses word problems and 
the strategies towards solving them, rather than repetitive drilling. 
Singapore Math also frequently uses models in teaching problem-solving 
(a form of pre-algebra) rather than the trial-and-error methods. This 
method is a problem solving strategy which simplifies the list of 11 or 
more problem solving skills suggested by the National Council for 
Teachers of Mathematics (NCTM).
    KWON supplements the curriculum with Accelerated Reading and 
Accelerated Math which are research-based computer programs that 
produce high gains in reading and math for students of different 
achievement levels in all grades. The program creates custom-designed 
practice assignments for students based on a computerized diagnostic 
test, scores their work, and reports the results immediately. The 
classroom teacher is then able to work with individual students on 
their particular skill strengths and weaknesses. Students work at their 
own individual levels and are given practice time to achieve 
proficiency. Teachers set realistic, achievable math goals with 
students for optimum growth using this program. Teacher use program 
reports and feedback for planning instruction, diagnosis of student 
needs, and also to provide information for parents.
    KWON's technology rich supports include MacBooks, listening 
centers, Samsung doc cameras, I-Pod Touch System, MacBooks, Elmos, 
Ipads, Neo II Boards, and SmartBoard Techonology. The programs are used 
for reading & math instruction which increases test scores through 
multi-sensory literacy and math comprehension strategies, vocabulary 
and language development, and repeated reading/math practice. Programs 
are scientifically proven, skill specific, differentiated, and current, 
best practice.
    KWON uses a three tiered RTI model. Tier I consists of general 
education (curricula, grading, and testing). KWON concentrates on Tier 
II which is an individualized, intervention level. Tier III is an 
intensive, skill specific intervention designed for each student. This 
includes Title I, Special Education, and one to one sessions conducted 
with teachers. All students participating in Tier II and III are 
monitored to ensure students' progress over time and close the 
achievement gap with their peers.
Highly Qualified Status of Instructional Staff
    32 of the 33 instructional staff are licensed and Highly Qualified. 
The last teacher is currently in the process of finishing her State 
Approved Teacher Education Program (SATEP) and completing her Praxis 
tests in order to obtain licensure and is scheduled to obtain her 
license by the end of SY 2010-2011. 50 percent of KWON teachers hold 
graduate degrees in education from schools such as Gonzaga, Chaminade, 
and the University of Hawaii.
    KWON's environment molds students' early experiences through native 
educators who understand and pass on all that is good in our native, 
cultural value system. The school has purposefully sought out highly 
qualified, Native Hawaiian educators who come from the community. Of 
the school's faculty members, 63 percent have advanced degrees, and 20 
of 41 members of the staff are graduates of the Kamehameha Schools, a 
private school exclusively for Native Hawaiians which is difficult to 
gain acceptance from. KWON thrives on the premise that this type of 
role modeling empowers the student body to believe that they can 
achieve and that all things are possible.
Professional Development Activities
    All KWON Professional Development (PD) activities are geared toward 
the increase of effective instruction. The focus of PDs at KWON is 
enrichment, differentiation, and skill specific instruction that is 
scientifically proven and data driven.
    Cultural workshops connect our staff and students to the wealth of 
ancestral knowledge available to us. The cultural workshops also enrich 
the relationships among our staff and students through the focus on our 
Na Mea Waiwai (core values: respect, responsibility, safety, humility, 
unity and perseverance). Activities such as creating kikepa (Hawaiian 
garb), kahili (Hawaiian version of a flag), and learning new `oli 
(Hawaiian songs) are conducted on a consistent basis. Historical 
background, personal and academic connections, and staff unity are 
always at the forefront of all cultural workshop activities.
    KWON teachers attend Kamehameha Schools' professional development 
days in order to learn and implement new strategies in their 
classrooms. KWON teachers attended an I Teach K Conference, Singapore 
Math Training Conference and a Differentiation Conference for which all 
teachers completed a collaborative project and presented statistical 
and anecdotal results reflecting the worth of attending the conference. 
All strategies and trainings are conducted within the framework of 
student achievement in order to close the achievement gap and increase 
academic achievement.
    All teachers participate in Professional Learning Communities on a 
weekly basis. These communities work toward (1) recognizing a need 
(with a focus on leadership training), (2) organizing for change (with 
a focus on leadership and infrastructure), (3) working on the building 
blocks (with a focus on infrastructure, school philosophy, and vision), 
(4) moving as a whole school (with a focus on the standards based 
change process), (5) sharing results within a professional learning 
community (with the focus on assessment results), (6) implementing the 
curriculum (with a focus on teacher-developed curriculum guides), and 
(7) engaging students and families (with the focus on portfolios, 
student self-assessment, and goal setting). Initially, the communities' 
meeting topics began with an assessment (by way of surveys, focus 
groups, and individual interviews, along with data collection) of three 
components of our school: infrastructure, classroom practices, and 
student outcomes. According to the results of the assessment, 
consistent professional development workshops were created and 
conducted. These workshops cover topics such as standards-based 
education, formative assessment to inform instruction, and the 
employment of instructional strategies across the schoolwide 
curriculum, all in the context of Professional Learning Communities. 
These communities are created and fostered not only to affect change 
through a partnership among the teachers but to sustain that change 
through grassroots involvement. We are continuing the growing process 
of refining our school curriculum, benchmarks, and anchor pieces for 
each benchmark. The communities also determine the expectations for 
each grade level through specific methodologies that are 
scientifically-proven to be effective. Through these Professional 
Learning Communities, teachers who are effective/knowledgeable in 
different areas instruct other teachers through professional workshops. 
These Grade Level PLCs also function as the teacher mentoring program 
through consistent meetings that discuss each teacher's strengths and 
needs in order to allow seasoned and beginning teachers to learn from 
one another. These learning communities allow teachers to receive the 
support they need to improve their classroom practices and give them 
adequate time to work together, both scientifically-proven necessities 
for classroom success.
    KWON has an extensive Support Services System that supports 
underperforming students with skill specific, individually designed 
instruction. The support system provides current, best practice reading 
and math strategies in the following areas: sustaining improved reading 
outcomes through phonics interventions, data analysis/data driven 
instruction from formative and summative assessments in order to target 
core reading and math strands for increased test results, RTI/Tier III 
reading interventions, teaching creatively to increase standardized 
test scores, metacognitive and multi-sensory interventions, motivating 
reluctant learners, and the use of technology in the classroom. KWON's 
closed circuit television plays professional development DVDs that 
contain Best New Practices and innovative teaching strategies for 
teacher utilization on a consistent basis. KWON also continues to build 
a professional development library available for the KWON staff in the 
Curriculum Room. This room houses texts, CD's, and DVD's that equip 
teachers with current strategies and methods that engage students in 
order to increase student achievement.
    KWON also offers Apple Institutes for Mac Software and Internet 
Programs Training for instructional staff. Training is for Apple 
Software and Internet Programs for supplemental, differentiated, skill 
specific, data driven reading and math instruction in the form of 
project based digital storytelling which increases test scores through 
multi-sensory literacy and math comprehension strategies, vocabulary 
and language development, and repeated reading/math practice. These PD 
days cover best instructional strategies by instructing teachers in how 
to best use the programs for differentiating for each student using 
skill specific software and internet reading and math programs.
Partnerships and Collaboration
    Kamehameha Schools--Kamehameha Schools' Ho`olako Like Program as 
well as Kamehameha Elementary School (KES) supports KWON by financially 
supporting the school's initiatives and providing the staff with 
opportunities for professional development (teacher trainings at the 
KES campus on literacy, conferences for Math and English Teachers, and 
workshops concerning topics such as differentiation). The Public 
Education Division of the Kamehameha Schools supports KWON through a 
longitudinal study that will track the long term effects of KWON's 
educational efforts through High School and beyond. This will help KWON 
address academic strengths and/or weaknesses that appear later in our 
students' academic career. KS also donated $5000 in cultural books for 
our Backpack Program to begin in SY 2010-2011.
    Hawaii Association of Independent Schools--is partnering with KWON 
to assist in the process of accreditation with the Western Association 
of Schools and Colleges. KWON began the process in SY 11-12.
    Na Lei Na`auao Native Hawaiian Charter School Alliance--KWON is a 
member of the Na Lei Na`auao which offers support among 12 Native 
Hawaiian Charter Schools.
    Hawaii Charter School Network--The 31 charter school network 
provides opportunities for KWON to learn from other charter schools 
throughout the islands.
    University of Hawai'i at Manoa, College of Education, Center on 
Disability Studies--Collaborates with KWON through the financial 
support of four free after school reading and math tutoring programs. 
These four programs focus on reading and math fluency. Currently, 200 
of the 572 students at KWON attend these programs on a daily basis.
    Hawaii State Teachers Association--Supports the teachers of KWON 
through union labor representatives that keep the staff aware of 
changing state laws that affect teachers.
    Department of Education--Provides Financial Management Services for 
payroll, SPED services and trainings, as well as counseling referrals 
that require Department of Health involvement.
    University of Hawaii Curriculum Research Development Group--
Provides core science curriculum (DASH)
    PDERI (Professional Development and Educational Research 
Institute)--provides opportunities for professional development for our 
staff.
    Alu Like--collaborates with KWON by donating hundreds of books to 
build our school library.
    Office of Hawaiian Affairs--financially supports KWON through 
grants that allow for our free bus service.
    Department of Hawaiian Home Lands--agreed to a minimal cost, 30 
year lease agreement with KWON to ensure KWON's long term support and 
success.
    Disney--granted KWON a 2500 sq. ft. playground and a 1,000 sq. ft 
garden in the 2010-2011 school year. Disney continues to support KWON 
through additional grants and school visits from Mickey and Minnie.
    HeadStart--applications are distributed during the school year for 
siblings of students to encourage pre-school attendance.
    Queen Liliuokalani Children's Center, The Institute for Native 
Pacific Education and Culture (INPEACE), Parents and Children Together 
(PACT), and Families for R.E.A.L. (the State Student Support Services 
Program)--are all resourced as needed.

    The Chairman. Mahalo nui. Thank you for your testimony, Mr. 
Parker.
    Before I call on our next witness, I would like to say that 
we are happy to have with us another member of the Committee, 
Senator Udall. Thank you for being here. I am going to ask him 
to introduce our next witness.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Akaka. I really 
appreciate that and have enjoyed very much hearing the earlier 
witnesses here.
    I want to welcome Kevin Shendo to our Committee. He is the 
Director of the Department of Education at the Jemez Pueblo. 
Kevin chairs in New Mexico a very important committee that is 
called the New Mexico Indian Education Council that gives 
significant advice. He is also a leader in the field of Indian 
education across New Mexico. I think you are going to see by 
his testimony that Jemez Pueblo and Kevin Shendo have a lot to 
offer in terms of the subject of this hearing.
    Welcome today, Kevin, and thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Udall. I also 
want to thank you so much for chairing the hearing on 
stereotypes.
    Senator Udall. It was my pleasure to do. You have a very 
able staff to support me here. Thank you.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Mr. Chairman,
    Thank you for convening a hearing on this important topic, 
Expanding on the Success of Native Language and Culture based 
Education. I have been a strong supporter of preserving native 
languages and culture, recognizing both the historical and cultural 
significance of language preservation, in addition to the inherent 
value and sense of identity that comes from the recognition of native 
cultures. Native languages are a treasure in and of themselves, and we 
must ensure their survival.
    We cannot deny the role the United States government has played in 
the loss of Native languages. We remember the cruel history when 
students at government boarding schools were prohibited from using 
their native languages. Our policies of relocation and assimilation 
further diluted native languages and strained the ability of many 
tribes to pass their language and culture down to their children. 
Thankfully, the days of denying native language and culture are ending.
    I am proud to have helped create the Esther Martinez Native 
American Languages Preservation Act in 2006, which authorized funding 
to tribes for new programs to revitalize native languages and prevent 
the loss of their heritage and culture. This program has helped fund 
language nests, survival schools, and restoration programs. For 
example, in my own State of New Mexico, these funds have helped support 
such programs as the Mescalero Apache Language Immersion School, and 
Pueblo of Pojoaque and Ramah Navajo School Board Native Language 
Preservation and Maintenance programs.
    I'd like to say a word about Esther Martinez. Esther Martinez was a 
94-year-old language instructor and storyteller. She was killed on her 
way home to Ohkay Owingeh in 2006, a pueblo in northern New Mexico. Ms. 
Martinez had just been honored with the National Heritage Fellowship 
award here in Washington, D.C. for her role in teaching Tewa to 
generations of students.
    Ms. Martinez was dedicated to preserving her Native language. She 
was known by her Tewa name, Poe Tsawa, which means Blue Water. Among 
her former students, both young and old, she was simply referred to as 
Ko`o, or Aunt.
    Many of us also honor the Navajo Code Talkers, those World War II 
soldiers who used their language to create an unbreakable code, helping 
the Allies win the war. Because the Navajo language had survived and 
been passed down, Americans had a code that the Japanese were never 
able to crack. Their success in that mission helped the Marines capture 
Iwo Jima. It contributed to American victory. And it saved untold 
numbers of Allied soldiers. This legacy, and these languages, must not 
be lost.
    According to the Indigenous Language Institute in New Mexico, of 
the more than 300 languages spoken in the U.S. at the time of European 
contact, only 175 remain, and by 2050, only 20 will be spoken with 
regular use, unless efforts are taken to teach the languages to new 
generations. We must not let this happen.
    I'd like to welcome the witnesses today, and look forward to 
learning about their experiences and hearing their advice on how we can 
further honor and preserve native language and culture for our children 
and future generations.

    The Chairman. Thank you, Senator Udall.
    Mr. Shendo, will you please begin with your testimony?

 STATEMENT OF KEVIN SHENDO, EDUCATION DIRECTOR, PUEBLO OF JEMEZ

    Mr. Shendo. [Greeting in Native tongue.] Good afternoon, 
Chairman Akaka, Senator Udall. Thank you for the invitation to 
be able to provide testimony to you here today on this very 
important subject of Native language and culture-based 
education.
    Again, I am Kevin Shendo, Education Director for the Pueblo 
of Jemez. The Pueblo of Jemez is situated in north central New 
Mexico. We have a population of about 3,700. What is 
significant about Jemez is it lies in a rural mountainous area 
of north central New Mexico. The last survey we did in 2006 
showed that 80 percent of our membership are still fluent in 
the Jemez language. It is an oral language that is not written. 
So this is very vital for us to continue to teach our young 
people and raise them within the context of the language and 
the Jemez community, within where language is learned. So I 
truly do appreciate the opportunity to share our story and our 
success with the work we have done in education.
    The Pueblo of Jemez in 1999 began its reorganization 
efforts and had a visioning session which they entitled Vision 
2010 and asked the community to come together and share what 
they envisioned Jemez looking like in the year 2010. From that 
visioning session came three main priorities. The first was to 
build capacity within our young people to be able to assume 
responsible leadership roles within our community as well as 
beyond our community boundaries. Second was to take ownership 
over the education systems of our young people.
    And third was to redefine education, redefine it so that 
Jemez language and culture are at the heart of what we teach, 
how we teach and where we teach our young people. So that whole 
redefining education movement began 10 years ago in Jemez, 
looking at the importance of language and culture and it being 
at the heart of how we educate our young people and looking at 
how we move forward in the educational process.
    Through that visioning session and the three themes that 
emerged, one of the most important things that came out of that 
was building what today we know as the Jemez Collaborative 
Education Group. That is the tribal program managers and 
coordinators working with our local schools: public, charter 
and Bureau, and really looking at bringing them together to 
begin to coordinate our school systems and really looking at 
how we can best serve the needs of our students, looking at the 
unique curriculum that each school offers, looking at the 
transitions that need to be put in place, and honoring language 
and culture across all school systems. And rather than 
competing for students, because we come from a small community, 
but are very rich in school choice, looking at how we can best 
meet the needs of our students as they transition from one 
school system to the next.
    From that collaborative effort came the growth of our joint 
professional development days with all our educators and our 
annual Education retreats. From which we have been able to 
develop our Jemez language and culture curriculum, K through 
8th, that we are now looking at implementing and integrating 
within our school systems. This really has enabled us to evolve 
with the work we have been doing on our language, looking at 
how important it is and the retention of it. Currently at our 
Head Start, early childhood level, over 60 percent of our 
children coming into our Head Start program are Jemez language 
speakers. So it does become really important that not only the 
education but the transitions that take place within our school 
systems are responsive to the priorities and needs of the 
community. So this collaborative work has become a key piece in 
the work that we are able to do.
    Through that works, the growth of the curriculum and 
development of it; what we have realized now, is that as we 
begin to look at laws like No Child Left Behind and Head Start 
mandates, that a lot of the Research-based curriculum and 
assessments and evaluations do not fit the model that we are 
trying to build that is rooted in an oral language within our 
community. So we are really looking at now beginning to define 
Research that supports the work that we are doing, Research 
that is owned by the tribe, directed by the tribe, working with 
institutions of higher education.
    Two of the posters you see displayed here are from a 
Research project that was conducted by our Head Start in 
partnership with Arizona State University. The title of the 
Research was Becoming Jemez: Looking at the Early Childhood 
Experiences of Jemez Children, where language is learned, how 
it is learned and whether Head Start supports the language 
learning of our young people or not.
    So this whole step and process of really looking at how 
language has become an integral part of how we move forward in 
our educational system and looking at the importance of oral 
language learning, I think that has made language and culture 
integration in the school systems very key. When you look at 
the report by the common core that was developed looking at the 
countries where student performance is very high, they are 
offering an education that is deeper and going wider, whereas 
the United States has been looking more of narrowing the 
curriculum and really looking at a monolingual system.
    What we are hoping to prove is that a multilingual effort 
is vital and for multilingualism to be seen as an asset rather 
than a deficit with English language learners. That is why this 
hearing is important for us in looking at language and culture 
and how it is integrated throughout all our school systems, and 
also allowing the ability for tribes to develop our own 
research based methods, and giving tribal education departments 
and tribal governments more authority, similar to that of State 
education agencies over the education of our children.
    Thank you.
    [The prepared statement of Mr. Shendo follows:]

Prepared Statement of Kevin Shendo, Education Director, Pueblo of Jemez
    The Pueblo of Jemez, is located in north central New Mexico and we 
have a tribal membership of approximately 3,788. Jemez is a very 
traditional Pueblo and we have maintained our cultural and religious 
practices. We are the only Pueblo where the Towa language is spoken, a 
language that is unwritten. In 1999, the Pueblo of Jemez, through its 
Vision 2010 community sessions, asserted our authority and desire to 
determine what is most important to the education of our tribal 
members.
    Jemez began our re-organization efforts in 1999 as part of the 
Visioning and Planning sessions for our community. From Vision 2010 and 
the community planning sessions, emerged three overriding themes that 
have been at the core of our Redefining Education Movement; one of 
these themes is to Redefine Education--so that Jemez Language and 
Culture are at the heart of how, where and what we teach our children 
to ensure the survival and advancement of our Jemez people.
    After a series of organizational changes, the Jemez Department of 
Education was redesigned to reflect a comprehensive approach to 
education which begins with our most precious resource, our infants and 
works up to our adult learners and college students. Encompassing all 
support programs, schools and services from our different tribal 
programs and local schools: bureau, public and charter. The Jemez 
Department of Education is a part of the Jemez Tribal Government and 
Administration. The Education Director reports to the Tribal 
Administrator who in turn, reports to the Jemez Governors and the Jemez 
Tribal Council.
    The Pueblo of Jemez is pleased with the progress it has made in 
creating a tribal education system that engages with State, Tribal and 
Federal institutions. Markers of success for the Pueblo of Jemez 
Educational System include:

  <bullet> Creation of the Jemez Education Collaborative, a coalition 
        of Tribal Education Program Managers, Coordinators, and School 
        Administrators from the Public, Bureau and Charter schools 
        serving Jemez students. The Education Collaborative meets 
        monthly to discuss critical education issues impacting our 
        student population. Rather than compete for students, funding 
        and resources, the collaborative works cooperatively to ensure 
        that the best educational services, transitions and supports 
        are provided to our students to ensure their success.

  <bullet> As part of this collaborative began the development of a 
        Jemez Language and Culture Curriculum from Early Childhood to 
        8th Grade through the annual Teacher Retreat and the Joint 
        Professional Development Days involving all teachers from the 
        local community schools and tribal programs.

  <bullet> Further, the involvement of the tribe in the schools has 
        resulted in an integration of our tribal language, culture and 
        priorities directly into the curriculum. This was done in 
        coordination with the teachers, community schools, the Jemez 
        Language Team, and the Jemez Education Department. We are, in 
        essence, developing an indigenous pedagogy that best meets the 
        academic needs of our student population.

  <bullet> Conducting research to support the Jemez educational 
        initiatives focused on developing Jemez Educational Standards, 
        complete with assessments and evaluations, rooted in Jemez 
        Language, Culture and Tribal priorities that integrate State, 
        National and International educational standards.

            -- ``Becoming Jemez PhotoVoice Project--the early childhood 
        experiences of Jemez children and the context within which 
        language is learned'' is a prime example of one such research 
        project being directed by the tribe in collaboration with 
        Arizona State University.

    The Pueblo of Jemez Tribal Education Department has developed 
meaningful relationships with our community and State partners:

  <bullet> Jemez has established two public charter schools within 
        reservation lands with Tribal Council approval in collaboration 
        with the local public school district, as New Mexico initially 
        set up a dependent charter school law, listing LEAs as the 
        authorizing agents; but the charter law was reauthorized to now 
        allow the State of New Mexico to become a second authorizing 
        agent, making two options available and honoring the 
        government-to-government relationship between NM and its 22 
        tribes.

  <bullet> Jemez has entered into an MOU with the State of New Mexico 
        for alternative licensure for Jemez Language and Culture 
        Instructors. Jemez will determine which of its tribal members 
        are viable to teach Jemez Language and Culture within the local 
        schools and the state will honor the tribe's authority by 
        granting the recommended individuals an alternative license to 
        teach within the public school systems.

  <bullet> Jemez also has an Inter-Governmental Agreement (IGA) with 
        the NM Public Education Department--Indian Education Division 
        for grant funds awarded to the Jemez Department of Education to 
        support language programs and student support services.

    The work of the Jemez Education Department has had and continues to 
have an impact on increasing the academic performance of our students:

  <bullet> The Jemez Valley Public School District was only one of two 
        school districts in the State of NM to make Adequate Yearly 
        Progress (AYP) as a district in the 2009/10 school year based 
        on the academic achievement of the students within their 
        respective schools.

  <bullet> Jemez on average has over 80 percent of its high school 
        graduates going on to 2 and 4 year institutions.

  <bullet> Through its different programs, the Jemez Education 
        Department is directly reaching and impacting over 450 students 
        per month, and over 100 students per day.

  <bullet> The four and five year graduation rates for Jemez Valley 
        High School and Walatowa High Charter School are above the 
        state averages and significant for schools with high Native 
        populations.

    Recommendations to strengthen tribal control and to ensure language 
and culture based education models are funded and made a priority are 
as follows:

  <bullet> ESEA Reauthorization needs to be inclusive of tribal 
        priorities: Opportunities for integrating language and culture 
        based programs have been overlooked because of No Child Left 
        Behind. Focus has been on Reading and Math, because our Native 
        children are unique, a lot of them have succeeded but are we 
        losing our Native identity along the way.

  <bullet> NCLB English only legislation needs to be repealed and be 
        made inclusive of home languages other than English. A greater 
        value and acknowledgement of multilingualism as an asset is a 
        must.

  <bullet> Recognizing that ``Top Down'' mandates don't work and 
        western education models are not the answer to tribal 
        communities working to develop educational standards that are 
        rooted in Language and Culture and that integrate local 
        priorities.

  <bullet> Parent's are a child's first teacher--a financial investment 
        and focus needs to be put on parent support and education 
        programs/services. Without strong parental support and 
        intervention, a child often struggles and is more prone to 
        experiment with and participate in risky behaviors.

  <bullet> Bureau of Indian Education mandate on background checks for 
        all classroom instructors takes up to six (6) months. 
        Revisiting policy to expedite the process or work with local 
        police departments for community educators, some of which are 
        certified language/culture instructors and respected elders.

  <bullet> Invest in ``Grow Your Own'' programs: Each community has 
        unique needs and challenges so they need to develop their own 
        programs. This empowers community members and develops a sense 
        of ownership, ``when we ``Grow our Own'' we then take pride in, 
        and want, need, and value what we produce. This brings 
        ownership and local responsibility.''

  <bullet> Increasing the role of Tribal Education Departments to that 
        of State Education Agencies and giving Tribes more authority in 
        the education of their children through the ESEA 
        Reauthorization: ``Jemez people know best, what is best for 
        Jemez children.''

  <bullet> Legislation needs to address federal and state educational 
        funding going directly to the tribes, helping to build 
        capacity, thus enabling them to best meet their community's 
        educational needs and priorities.

  <bullet> Invest in research that supports Native language and 
        traditional community based learning models. These are 
        ``Education Best Practices'' and legislation should support 
        best practices in Native Communities and research that is 
        driven by tribal communities and their research partners.

  <bullet> Invest in holistic education models that incorporate all 
        aspects of a child's learning, to meet the needs of the whole 
        child: Educationally, Socially, Culturally, Spiritually, 
        Emotionally, Physically and Nutritionally. A healthy, well 
        child can be taught to learn and master most anything. ``It 
        takes a village to raise a child.''

    As Tribes and Tribal Education Departments, we have a 
responsibility to hold the Federal and State Governments, public school 
districts and schools that serve our students accountable, to ensure 
that our students are readily prepared for college or a career. So 
Jemez echoes that the burden of education for our young people not to 
be the responsibility of one, but that it truly becomes a joint, 
collaborative effort, which creates a win-win situation for all; thus 
ensuring the educational sovereignty of tribes and our right to self-
determination.
    The Pueblo of Jemez has always been and will continue to be a 
strong supporter of educational initiatives. Diverse educational 
opportunities, together with traditional knowledge, fluency in our Towa 
language and a strong cultural foundation have empowered us and 
education has opened doors of opportunity. The Pueblo of Jemez realizes 
that education is a lifelong journey and that it is critical to meet 
the needs of our community at all levels: educationally, culturally and 
socially.
    The Pueblo of Jemez Department of Education is central to providing 
different educational opportunities, services and programs to all 
tribal members. Because of its partnerships and collaborations with 
higher education institutions, community schools and organizations, 
state and federal agencies; It is a place from which one is able to 
access a multitude of services within the educational arena.
    In closing, I would like to quote the National Congress of American 
Indians and the National Indian Education Association's Tribal 
Priorities for Indian Education. ``The health, well-being, and success 
of Native children are central to Tribal Sovereignty. Tribal 
Communities, supported by strong tribal governments, are responsible 
for raising, teaching and caring for children. Native children in turn 
form the back bone of future tribal success.''
    Thank you for the opportunity to provide Testimony before the 
Senate Committee on Indian Affairs.

    The Chairman. Thank you very much, Mr. Shendo, for your 
testimony.
    Now we will move into questions for our witnesses. My first 
question is to Namaka Rawlins. Your consortium has done work 
with other Native peoples to assist in their own language 
perpetuation efforts. Can you describe the work that you do and 
the impact that work has had on other Native communities?
    Ms. Rawlins. Mahalo. Yes, let me see, I wrote it down. Our 
consortium, with the two partners as I explained earlier, has a 
full P-20, preschool through the doctorate degree. Within the 
consortium, we are providing, and with our laboratory school, 
we are providing technical assistance to others that are 
looking at our model and wanting to replicate the model. So we 
have had visitors, over 350 indigenous visitors annually, that 
come to see our model, on the ground.
    So they are able to see firsthand what language nest looks 
like, with our preschoolers, and then able to see what the K 
through 12 looks like, education, what teaching in our 
language, all subject areas, what that looks like. Then onto 
the Hawaiian language college, where you have the bachelors, 
masters program and the doctorate degree, along with the 
teacher certification program, indigenous teacher certification 
program, and the curriculum development center and 
technologies. So we have offered this technical assistance for 
many years. We were able to get the support of private 
foundations to help us, so that we could provide this sort of 
support.
    And in particular, we were able to support the Cherokee 
Nation in the development of a similar model to have the 
eastern, I think it is called North Eastern University, the 
similar model, working with the Cherokee immersion program 
there. So having that integrated elementary and university 
component to support that, we were able to demonstrate that and 
support taking that model to that community as well.
    The Chairman. Mr. Lasley, you talked about the challenges 
associated with teacher certification in your written 
testimony, and a desire to see tribes have the authority to 
certify Native language teachers. Can you explain what minimum 
qualifications tribes might adopt if such authority was made 
available?
    Mr. Lasley. I think the qualifications clearly have to be 
one, that the teacher is a tribal member who is very familiar 
with the language itself and also cultural values pertaining to 
child-rearing. Many of our children have to begin learning the 
language almost from birth. Beyond that, I think something akin 
to an associate's degree, whereby they are provided enough 
training in modern teaching techniques to be able to apply 
those or refine them in a tribal setting, so that indeed, they 
do meet some minimum qualifications, but also that they are 
acknowledged and recognized by tribal standards that they are 
adequately trained to provide the instruction.
    So it would be up to the tribes to develop that criteria. I 
believe we can successfully do that if in fact we have the 
mandate or the means, the opportunity to be able to do that 
without being stifled by other Federal regulations that 
emphasize the most recent ways of judging or certifying 
qualified teachers.
    The Chairman. Thank you. We will have another round of 
questions.
    Senator Udall?
    Senator Udall. Chairman Akaka, thank you very much. This 
has been an excellent panel.
    I am very interested in strengthening the pipeline for 
tribal students to become professionals, and returning to their 
communities, especially as teachers and health care providers. 
What suggestions do any of the panelists have for growing our 
own Native teachers and how do we encourage college students to 
pursue a career in teaching, especially in Native communities? 
Kevin, do you want to start?
    Mr. Shendo. Thank you, Senator Udall. One of the things we 
have done in our community actually, is looking at growing our 
own, starting a college internship program, that we have had 
our tribal programs invest resources and funding in, so that 
they are able to set aside funding through their regular 
budgets to hire college students coming back into the 
community, both giving them the opportunity to work in the 
field that they are studying within the local community, but 
also then, to build a pipeline to reintegrate them back into 
the community once they receive their degrees.
    This has been a tremendous program that we have put 
together. That is one. The other partnership that we 
established is with the AmeriCorps Vista program, looking at 
volunteer service to our community and giving young people the 
professional experience they need, but also the resources to be 
able to continue to pursue their education. I think 
opportunities as such have been very beneficial to us. One 
thing that has been a real focus for a lot of our college 
students is learning about the tribal government, tribal 
programs and how they function within the context of the 
community. That is something that cannot be taught in a college 
classroom, but one that has to be learned and experienced 
through those professional experiences that we are able to 
provide our young people.
    Senator Udall. Do any of the other panelists want to weigh 
in on that?
    Ms. Rawlins. I would like to. I was thinking about your 
question. In our experience, over the 30 years that we have 
been in the development of programs based on our language and 
our culture, it has brought up from within our own communities 
the empowerment from within our communities to return, that is 
part of the education. We talked about Kuleana earlier, 
responsibility, so it is innate, it is a part of the way we do 
things.
    So today's hearing, the way we do our language and culture 
education, it fosters and it builds upon that strength of our 
Native communities to want to be a part of solutions and coming 
back and giving back. So when we look at the Punana Leo, when 
we started our language nest, we had parents that got involved 
that went on to become teachers themselves, because they were 
becoming involved in the education of their children and sought 
to get their teaching certification so they could be a part of 
this education in our language and through our language.
    We have now, because of being around this long, 30 years, 
we now have students that have graduated from our education 
system that are now returning and contributing back. It is just 
part of the way our education and how we are building within 
our communities that idea of Kuleana, responsibility, and 
coming back and contributing back to your community. You just 
don't take away, you come back and give back, too.
    Mr. Lasley. We would agree. I think our tribe sees that as 
an opportunity, grow your own programs, things of that nature. 
We see glimmers of hope at the earliest grade levels now, when 
we introduce Meskwaki speakers into those classrooms as teacher 
aides. So we also have certified teaching staff in certain 
classrooms that also voluntarily implement some of our Meskwaki 
language, even though they are non-Indian. We still see the 
students responding and learning phrases and words.
    So we believe it can be done, and we also would like more 
support in the reauthorization to promote those practices to be 
seen as continued opportunities.
    Mr. Parker. May I say something? Curiously, where my school 
resides in Waianae, the major problem it had is retaining 
teachers. So that was used as a reason for educational failure. 
At the school that I am the principal at, 21 of my 40 teachers 
are of Hawaiian ethnicity. And the school has 93 percent 
Hawaiian, so obviously the role modeling automatically takes 
place in this community. We have found it to be a very powerful 
component in that a number of our students go on to private 
schools after they leave our public school. Private schools are 
obviously the elite of the educational system in the State of 
Hawaii.
    Senator Udall. Thank you. Thank you very much.
    The Chairman. Thank you very much, Senator Udall.
    My question now is directed to Alvin Parker. Can you 
discuss how the Native Hawaiian community in Waianae has been 
involved in the design and goals of your school? And also 
whether or not you think that contributes to student 
achievement?
    Mr. Parker. Yes, Senator. Waianae coast is made up of three 
mokus, Makaha Moku, the Waianae moku, the Maili moku, excuse 
me, four mokus, and Nanakuli moku. These are four individual 
communities that are along the 17-mile Waianae coast. We have 
students from every one of these mokus. So a total student body 
of about 600 children, ranging from K to eighth grade.
    So we get a lot of input from our families. But what we 
basically return to them is a high-quality educational 
facility. That is what they appreciate. Why I am using the four 
mokus to identify how we work together, if just one Nanakui 
moku provided all 600 students, then you wouldn't be getting 
this cross-section. But we get a lot of people.
    I will give you an example. We recently put this project 
Kaboom together, with the help of the Disney Corporation. In 
one day, 250 family members and about 50 students showed up and 
built a $250,000 playground in one day. It was the most amazing 
sight. I never could have believed it if I hadn't seen it, it 
was a fantastic sight. That is one way I can indicate to you, 
physically indicate to you that it is being done in the Waianae 
coast.
    We were one of only two grants that Disney allocated. And 
the other allocation came from the NFL Players Association in 
the State of Hawaii. That is my most recent example. This 
happened on April 28th.
    The Chairman. Mahalo. Mr. Shendo, despite their different 
structures, how has the Pueblo been able to successfully 
integrate cultural language programs in each school? What 
recommendations can you provide the Committee?
    Mr. Shendo. I think the overriding theme has been staying 
true to the vision of the community and honoring that. Even 
regardless of the school system or the educational system that 
is in place, when serving the needs of our tribal students, 
every school system within its leadership has come to 
understand and honor the vision of the community and honor the 
priority of language and culture in its educational system. I 
think with that, and the tribe prioritizing and pushing that 
has enabled the different educational systems to stay true to 
the vision of the community and honor it.
    There have been barriers or challenges in certain school 
systems. But we have been able to come together as a 
collaborative and work through them to ensure that language and 
culture are integrated. In some schools it is more present than 
others. But it is present in every school system. I think that 
is the important piece, that the schools have come to the table 
with the tribe and honor and respect the priority of language 
and culture that the tribe is integrating.
    The other piece that has made this collaboration possible 
is the State of New Mexico has an Indian Education Act. Through 
the Indian Education Act, the State recognizes the authority of 
the Tribe with the ultimate control or authority of tribes over 
the education of their children. So through that, there are 
different avenues and ways. One is the alternative licensure 
where each tribe is able to enter into an agreement with the 
State of New Mexico, so that the tribe becomes the authorizing 
agent to decide which of its tribal members they can license to 
be able to teach language and culture within the public school 
systems, Bureau or charter, and then the State will recognize 
them by giving that individual an alternative licensure to be 
able to come into the school systems.
    So there are different avenues that have been put in place 
at the State level. But also at the local level, it is just the 
coming together and recognition of honoring the tribe and its 
priorities. But really also, teaching from the perspective of 
honoring and validating the prior knowledge that children bring 
into the classroom, and relating education to the experiences 
that children bring from their respective communities, because 
in our school district, we have the Pueblo of Jemez and also 
the Pueblo of Zia.
    I think the recommendation that I would make to the 
Committee is, the Indian Education Act really helped to propel 
Indian education within the State of New Mexico. So maybe 
looking at legislation that forces the different entities and 
agencies to come together in a sense. But I think through a 
collaborative process, because if it is not written in law, 
there are lost opportunities where the collaboration won't 
happen. But if the mechanisms are put in place to enable the 
collaborations to happen, they become key to the success that 
can be realized.
    The Chairman. Thank you very much for your response.
    Ms. Rawlins, could you provide the Committee with 
additional information on English language outcomes for 
immersion programs? Do students educated in Native American 
languages face challenges when they move on to higher education 
taught in English?
    Ms. Rawlins. Thank you. Our model is that English is 
offered, or English Language Arts is introduced in grade five 
for an hour a day. At the end, I reported that we have 100 
percent graduation rate. When our students graduate, they are 
100 percent bilingual, biliterate, both in Hawaiian and in 
English. They are, at senior year, they are concurrently 
enrolled in local university courses or the community college. 
So they are taking courses in English in the 12th grade.
    So the system that we have is a rigorous acquisition of 
both Hawaiian language as your prime language of instruction 
and prime target language in the early years, and then the 
gradual grade five, your hour of English in grade five. Then of 
course, there is the research that students do in intermediate 
high school or like you Google your regular researches in 
English. A lot of the textbooks that they have in high school 
and intermediate school are English textbooks. But the medium 
of instruction remains Hawaiian.
    So this model has proven to have the, like I said, 100 
percent graduation rate, 80 percent of them entering college. 
In addition to this, our students have graduated from the 
university, both our local universities, University of Hawaii 
at Hilo, at Manoa, our community colleges in Hawaii, as well as 
colleges on the mainland, including Loyola and Stanford. We 
just had our first Punana Leo graduate receive his Ph.D. from 
Oxford.
    So these are examples of the success of English language, 
positive English language outcomes for our students that are 
grounded in their language in Hawaiian that are then moving 
into English and all of the other support that, like I said 
earlier, they are having to research and everything is in 
English. So they are well prepared.
    I think I answered the question.
    The Chairman. Thank you very much.
    Mr. Lasley, you mentioned the need for a central repository 
of knowledge pertaining to language programs. Please describe 
the challenges you face due to the lack of a central 
repository. And any suggestions you may have regarding how a 
repository would function.
    Mr. Lasley. I think first and foremost this centrally-
located repository of knowledge and resources would be certain 
amassed and would be the responsibility of either that 
institution or an organization which has frankly, a huge amount 
of resources, financially and human, in order to bring all the 
resources and materials, for example, that have been developed 
by the Native Hawaiian population to the broader Native 
American or tribal audience or consumer. I think across the 
United States there are varying levels of success taking place. 
But in our case, for example, with me, over 40 years ago, being 
brought up in immersion, in the Meskwaki language was simply 
part of our life, our lifestyle.
    Over that amount of time, lifestyles have changed, 
technologies have changed. And the influences on our young 
people are much more mainstream, as opposed to tribal. So an 
organization that has a huge amount of resources and the 
ability to travel to touch each and every one of these Native 
communities with regard to whatever stage they are in in 
development of language preservation from those that are the 
most advanced, that have been doing this for 30 years, to those 
that are only starting but may have a strong culture and 
heritage still intact. The raw material is there within the 
community. But it simply has to be organized based on effective 
and proven models that have been developed over a long period 
of time by other tribal cultures.
    It will take a fair amount of work, it will take a fair 
amount of time. But I think it can be accomplished to the 
betterment of not only Alaska Natives, Native Hawaiians, but 
also Native American tribes here on the mainland, so to speak. 
But again, I think it has to be very business-oriented, it has 
to be very structured. But I do believe it can be accomplished.
    The Chairman. Thank you for your response.
    Mr. Parker, how are your students performing as compared to 
the other schools in the communities that you serve? Can you 
identify what you believe to be the key factors in their 
success?
    Mr. Parker. That is a loaded question, Senator. We are the 
only school on the Waianae coast that has passed AYP. And we 
have done it four out of six years.
    I believe it is because one of the key ingredients is we 
have a sustainable faculty. We don't lose teachers. The 
majority of my teachers, except for two of them, have been with 
me for five years or longer. There is only one teacher that is 
not HQTd, and she is in the process of getting her highly-
qualified status.
    Another reason would be that the students, when they enter 
in kindergarten, which is our entry point, they don't leave 
until they, if they get into Kamehameha from sixth to seventh 
grade, then they will leave, or eight and ninth, but they 
normally stay the entire nine years. I think the consistency of 
faculty, the stability of the student body, it matters quite a 
bit.
    I wrote a masters project on how do you build a sustainable 
school, a successful sustainable school. Part of it was design. 
So the school has been in existence for, it is going on its 
11th year. We have done pretty well.
    Another thing is the faculty is predominantly Hawaiian. So 
the children, they look at their teachers and they realize that 
anything is possible. The only two Caucasian teachers I have, 
one was born in Hawaii and her name is Noni, and the other has 
been living there for 35 years. So that is the type of faculty, 
I think it really does matter to the students, especially in a 
socioeconomically depressed community. And these people travel 
as far as Hawaii Ke to get to Nanakuli to work. You know the 
geographics, that is quite a distance to travel every morning.
    The Chairman. Mr. Shendo, the Pueblo's charter school has a 
graduation rate of 89.4 percent. This program has been very 
successful compared to the national rate for Native students of 
49 percent. Can you describe why you think the charter school 
is so successful in graduating students? Also, how can we 
translate that success to other schools through legislation?
    Mr. Shendo. The graduation rate at Walatowa High Charter 
School, again, one of the key factors is the zero, minimal to 
zero turnover of staff. That is key. The other thing that has 
been key and I have expressed is the honoring of the language 
and culture, and really teaching to the students within the 
context of the communities they come from. It is taking the 
academic subjects and knowledge, but putting them and teaching 
them from a perspective where it relates back to the community, 
then education really means something. And working with our 
community professionals that are serving the tribe as well as 
elders and community members that carry key knowledge and 
integrating them as co-teachers, as facilitators, as part of 
the learning process.
    So it is really taking the school and integrating it into 
the community and teaching from the perspective of the 
community, so, as the different subjects are taught, they 
relate back to the community that the students come from and 
also, they honor the prior knowledge that young people bring 
into the classroom. That has been one of the biggest keys of 
success.
    Walatowa High also received an early college grant. So we 
are trying to transition it now. We have been working the last 
four years, implementing an early college program, and really 
raising the expectations of our students. Looking at multi-
lingualism as an asset, looking at models internationally that 
have been successful and integrating what has been successful 
with those international models that integrate multi-lingual, 
multi-cultural programs into the school systems. The motto of 
the school is think globally, create locally.
    So it really affords the opportunity of the staff to look 
at diversifying the curriculum. Doesn't look at the subject 
matter singly. But looking at integration of experiential 
learning processes that are across disciplines, so that one 
project may involve all the different disciplines in the 
schools and contribute to that student's learning of that 
particular lesson from the different subjects. But they all 
interrelate. I think that has been one of the biggest successes 
of the school, of its success rate and graduation rates, that 
have helped really to benefit the students and their success.
    And how can we translate that to other schools and areas? 
It is really helping, I think, and I don't know how we can do 
this through legislation, but helping communities to define a 
vision. That has been one of our biggest benefits, having a 
vision, a common vision that we can all work toward, and 
everyone understanding that vision. And through the 
reauthorization, some of the proposed legislation is to develop 
the capacity of tribal departments of education within 
different Native communities. Maybe that may be an avenue to 
begin to address this, and looking at what ways which can be 
utilized to help to replicate a similar model.
    But it is really looking at validating the prior knowledge 
that young people bring, it is integrating the educational 
system into the communities and communities into the schools.
    The Chairman. I want to thank you very much, our first 
panel, for your responses to our questions. Without question, 
your responses will help us refine what needs to be in our 
education programs for Native peoples. That is the intent of 
all of this. The thing is, we want to make it the best.
    What has been coming out also is that there have been 
successes. There is a reason for that. We would like to take 
advantage of this and as I have said earlier, want to build on 
the basis of what we have done that has been successful and 
make it better. All for the sake of retaining and keeping our 
culture and language alive for the people of our Country.
    And for me, without question, this will help the United 
States also. So this will help our peoples to be more 
productive. Because the future is there, and there are so many 
new things that are coming up and our young people need to be 
educated to the point where they can begin to contribute to 
this production. This Committee will be taking up some of 
these, like energy and other areas, that can help the tribes as 
well, to help them be productive.
    Again, mahalo nui loa, thank you very much for your 
responses and I want to tell you, we are very indebted to you 
for helping us achieve a better future for education in our 
Native languages. Mahalo. Thank you.
    I would like to now call the second panel, and invite the 
second panel to the witness table. Mahalo nui for the lei, and 
this really honors me. We are so happy to have all of you.
    We have Jana Harcharek, Director of the Inupiaq Education, 
with the North Slope Borough School District in Barrow, Alaska. 
David Beaulieu, a Professor with the University of Wisconsin At 
Milwaukee, will speak second. And our final witness, Shawn 
Kanaiaupuni, with the Kamehameha Schools, in Honolulu, Hawaii. 
Welcome to the Committee, and to this hearing.
    Ms. Harcharek, will you please proceed with your testimony? 
Your full testimonies will be included in the record.

  STATEMENT OF JANA HARCHAREK, DIRECTOR OF INUPIAQ EDUCATION, 
       NORTH SLOPE BOROUGH SCHOOL DISTRICT, BARROW ALASKA

    Ms. Harcharek. [Greeting in Native tongue]. Chairman Akaka, 
and distinguished members of the Committee, thank you for the 
opportunity to provide comments.
    My name is Pausauraq Jana Harcharek. I am the Director of 
Inupiaq Education at the North Slope Borough School District. I 
have lived in Barrow, Alaska, all of my life save for when I 
had to leave home to attend high school.
    I have devoted my entire professional life to language and 
cultural preservation and perpetuation. The North Slope Borough 
School District is comprised of 11 public schools, situated in 
8 communities spread across 88,000 square miles. Our district 
serves 1,816 students from preschool and kindergarten through 
grade 12.
    Founding North Slope Borough Mayor Eden Hobson was an 
astute man who knew that we had an unprecedented opportunity to 
direct our own destiny. In 1975, he said, ``Today we have 
control over our educational system.'' He wanted an assessment 
of whether or not our school system was truly becoming an 
Inupiat school system, reflecting Inupiat educational 
philosophies, or if in fact, we were merely theoretically 
exercising political control over an educational system that 
continued to transmit white urban culture.
    Thirty-six years later, our school board continues to 
strive for the realization of Mayor Hobson's vision for 
education. The mission of the district as defined by the board 
is that learning in our schools is rooted in the values, 
history and language of the Inupiat. Our board wants our 
students prepared to excel as productive citizens of the world, 
able to integrate Inupiat knowledge and values with western 
ways.
    Five years ago, the North Slope Borough School District 
finally decided that it was time to go to the people, it was 
time to forego the abysmal philosophical underpinnings of the 
district to impose a system created in white urban America for 
white urban children on Inupiat children, because it was 
failing. It was time for a change. It was time to begin 
building the bridge of trust between school and community. So 
the District went to the people, and the people spoke.
    The people said loudly and clearly that they want their 
children's schools to reflect who they are. They said their 
children no longer should have to leave their identities 
outside when they walk into their schools. They should know 
their history and who their leaders are. They should see 
Inupiat art forms in their buildings. They should learn to 
think like Inupiat, because they are Inupiat.
    Two years ago, the District formed a committee called 
Ilinniagnikun Apqusiuqtit. They are the people who break the 
trail for learning. It is through their efforts that the 
Inupiat learning framework was born. This framework, adopted by 
the board last summer, is now the foundation upon which Inupiat 
culture and language-based academic curricula and assessment 
processes are being developed.
    The prospects for increasing academic achievement as a 
result are very, very promising. The goal is for all North 
Slope students to reach their intellectual potential and 
achieve academic success through the integration of Inupiat 
knowledge into the core content areas of reading, writing, 
mathematics and science.
    The District is actively mapping its curriculum and 
aligning it with the Alaska State Content and Performance 
Standards, adapting a nationally-recognized curriculum 
development methodology, referred to as understanding by 
design. The process includes the engagement of our communities, 
elders, parents, leaders, business and governmental partners, 
teachers and students. We all know that students perform better 
academically when parents are involved.
    The development of Inupiat language and culture-based 
curriculum, written from the perspective of the Inupiat, will 
have long-term positive outcomes for increased academic 
performance and local teacher hire and retention. This is 
supported by research. Through community ownership of education 
and investment in new educational practices now, we increase 
the relevance and viability of the teaching profession from the 
perspective of our students. When our students see themselves 
honored in the classroom with curriculum that is written from 
their perspective, they will see that teaching is an honorable 
profession.
    Seems Mayor Hobson had figured out what needed to be done 
to make our schools more effective decades before the 
mainstream did. Thank you very much.
    [The prepared statement of Ms. Harcharek follows:]

 Prepared Statement of Jana Harcharek, Director of Inupiaq Education, 
           North Slope Borough School District, Barrow Alaska

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Ms. Harcharek.
    And now we will receive the testimony of Dr. Beaulieu. 
Please proceed.

           STATEMENT OF DAVID BEAULIEU, PROFESSOR OF 
   EDUCATION POLICY AND COMMUNITY STUDIES; DIRECTOR, ELECTA 
             QUINNEY INSTITUTE FOR AMERICAN INDIAN 
          EDUCATION, UNIVERSITY OF WISCONSIN-MILWAUKEE

    Dr. Beaulieu. Mr. Chairman, members of the Committee, I am 
David Beaulieu. I am an enrolled member of the Minnesota 
Chippewa Tribe from the White Earth Indian Reservation in 
Northern Minnesota. I am a former director of the U.S. Office 
of Indian Education and a past president of NIEA, the National 
Indian Education Association.
    Between 2002 and 2005, I was involved, along with William 
Demmert and other research partners, in an effort funded by the 
U.S. Department of Education to consider whether it was 
feasible to conduct experimental or quasi-experimental Research 
to determine the impact of culturally-based education on the 
academic achievement of Native American students, and if so, to 
propose a Research design to do that.
    The need for such Research originated in President 
Clinton's and President Bush's executive orders on American 
Indian and Alaska Native education. Our Research group proposed 
a quasi-experimental design that ultimately was not funded, nor 
was there a request for any other design to answer the Research 
question.
    There has not been any Federal support for this type of 
research or Research concerning best practices in culturally-
based education also required by the executive orders since the 
request for feasibility in 2002. The importance of doing 
Research on this subject, outside of the fact that Native 
American educators and leaders wish to have the kind of 
information that allows for effective development of 
educational programs for Native American students, is a 
realization that all of our Native American education-related 
statutes in part suggest a relationship of meeting what is 
known as the special educational and culturally related 
academic needs of Native American students with academic 
achievement.
    The theoretical literature in this area focuses on the need 
for social-cultural congruency between the expectations of the 
school and the dispositions of learners for education-related 
discourse. For example, Research related to cognition or the 
ability to acquire knowledge has focused on what is known as 
elaboration, or the process of forming associations between new 
information and prior knowledge. For learning to occur, the new 
information must undergo some form of processing that focuses 
on conceptual characteristics of the new information, such as 
its meaning, personal or social relevance or relationship to 
prior knowledge and experience. Culture and language provides a 
basis for such associations.
    An area known as cultural historical activity theory looks 
at language vocabularies and routines acquired by the learners 
through the process of socialization as children through 
language exchanges and social activity as a primary cognitive 
tool for individual and group problem-solving and adaptation. 
The processes of schooling result in positive outcomes when 
they are congruent with the learner's cognitive and linguistic 
tools.
    Positive learning also occurs when school participation 
structures are congruent with the learner's. Examples include 
turn-taking, wait time, observational learning versus trial and 
error, and other various courtesies and conventions of 
conversation unique in many cultures.
    William Demmert and John Towner, as a part of the 
feasability study, conducted a literature review to identify 
all the experimental and quasi-experimental research on 
culturally-based education and academic achievement that had 
been accomplished. Starting with over 10,000 documents, only 
two directly looked at the relationship of culturally-based 
education to academic achievement. This type of Research simply 
has not been done. There are many studies of less scientific 
rigor that demonstrate potentially positive relationships. It 
is noted that the literature does not suggest the opposite is 
true.
    The achievement and education progress data of Native 
American students in school programs without culturally-based 
efforts indicate the current educational strategies are not 
effective for many Native students. Where there is a 
comprehensive focus on Native language and culture, as the core 
of the school's approach, the results are significantly 
different. Dr. Teresa McCarty from Arizona State University in 
a 2009 report to the U.S. Department of Education describes the 
educational approach and results of a number of schools, 
including those that focus on students where the home language 
is other than English, or where the objective is language and 
culture revitalization as well as focused culturally-based 
education programmatic efforts.
    Summarizing the results of her report, she stated that 
there is compelling empirical evidence that strong, additive, 
academically rigorous Native language and culture programs have 
salutary effects on both Native language and culture 
revitalization and student achievement as measured by multiple 
types of assessments. Time spent learning the Native language 
in a strong program, regardless of Native language expertise, 
is not lost in developing academic English.
    She also noted other aspects of what is considered a strong 
program: enhanced self-esteem, motivation, ethnic pride are 
evidenced as factors, improved attendance, and college-going 
rates, and unique and varied opportunities for involvement of 
parents and elders in the children's learning is associated 
with enhanced achievement. Both of these factors are noted for 
strong Native language and culture programs.
    There is ample evidence that well-developed efforts work. 
My testimony elaborates on these points, and I have provided 
the Committee with both the reports I have mentioned. My 
testimony also suggests areas where existing statutory 
language, if utilized, could be a basis for more success. We 
need more research and programmatic support that assists in 
developing strong Native language programs.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Beaulieu follows:]

Prepared Statement of David Beaulieu, Professor of Education Policy and 
  Community Studies; Director, Electa Quinney Institute for American 
          Indian Education, University of Wisconsin-Milwaukee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Dr. Beaulieu.
    Now we will receive the testimony of Dr. Kanaiaupuni. Will 
you please proceed?

   STATEMENT OF SHAWN KANAIAUPUNI, Ph.D., DIVISION DIRECTOR, 
                       KAMEHAMEHA SCHOOLS

    Dr. Kanaiaupuni. Thank you, Mr. Chairman, and aloha, 
Members of the Committee.
    My name is Shawn Kanaiaupuni, and although the Kapuniai's 
did live down the street from me growing up, it is a real honor 
and privilege to be able to share research with you today about 
new research on Native language and culture that very much is 
consistent with those of my colleague, David Beaulieu, about 
improving educational outcomes for Native students.
    I am currently the Director of the Public Education Support 
Division and formerly the Research and Evaluation Division of 
Kamehameha Schools, and have also served on the National Indian 
Education Association as a board member and sit on the Native 
Hawaiian Education Council.
    I represent Kamehameha Schools, which is a 125-year old 
private charitable trust in Hawaii, dedicated to educating our 
Native children. We operate several private campuses, but also 
spend some $25 million to $30 million annually in support of 
our public schools and public education, because they educate 
about 85 percent of the 70,000 Native Hawaiian youth in our 
State.
    Data trends over time within our DOE indicate that although 
proficiency rates for all race and ethnic groups have increased 
over time, and you can see this busy slide really shows an 
increasing trend since 2003 in proficiency rates. But what we 
see is that there is a very large achievement gap. I want you 
to focus on the red line there at the bottom, compared to the 
top performing groups in our State, which tend to be Japanese, 
Chinese and Korean. The State average is somewhere in the 
middle. But basically that achievement gap has existed over the 
last 50 to 60 years, based on our research.
    This chart is for math. The same is true in language arts. 
The concerning thing about this is that our Native students 
comprise the largest single race and ethnic group in our State 
public school system, about 25 percent. So one in every four. 
Our Samoan youth also fare very poorly. They comprise about 3 
percent of our public school system.
    The other important thing that is concerning to us besides 
the enduring nature of the achievement gap is that based on the 
data, conventional methods of educating our Native students 
have not worked. It is not a gap, it is a gaping hole.
    So really I want to share with you some of our research 
results of a recent study on what works for Native students. 
The study specifically addresses culture-based education and 
the resulting impact on student outcomes, including academic 
student outcomes. It is the first large-scale empirical study 
of its kind that we know of, including data from 600 teachers, 
some 3,000 students, about 2,000 parents, from 62 participating 
schools that include conventional DOE schools, the DOE has been 
a partner in this study, culture-based charter schools, which 
have been very promising in terms of Native education and 
conventional charter schools as well, also language immersion 
schools in our State (we have 17 public language immersion 
schools) and our own private campuses.
    We ran lots of analyses, from very simple descriptive 
analyses to multi-variate analyses to very sophisticated multi-
level statistical analyses run by national experts in the 
field. In the interest of time, the key findings are the 
following.
    We find a very consistent, enduring, positive impact of 
culture-based education on student outcomes. Higher CBE use is 
related to higher socio-emotional development for students, 
things like identity, self-efficacy, aspirations, the things 
that lead to positive academic achievement. We find that higher 
culture-based education use is related to higher student civic 
engagement, not only feeling connected to your community and to 
civic issues in your area, but also taking action on those 
issues, like getting out there to protect the environment, to 
share with others and educate others about how fragile our 
environmental system is, about getting out there to attend 
public meetings about community affairs. These are what our 
students do.
    And these are the students that we want to see taking care 
of us when we grow older.
    Higher culture-based education use is also related to 
students spending more time on homework, to their feeling a 
sense of belonging in school, a sense of having trusting 
relationships, like teachers really care about them. Some may 
call that the soft fuzzy stuff of education, but in reality, if 
you are familiar with many of our Native communities that have 
sustained multiple generations of marginalization in public 
schools, feeling a sense of connection to school is really the 
single most leading indicator of future educational success, of 
wanting to go to college, of being successful in your career.
    In fact, our data show that from culture-based charter 
schools, 90 percent of students graduate and go on to their 
successful careers in college. That is compared to our State 
average of 80 percent and for Native Hawaiians, around 60 
percent.
    We find that higher culture-based education use is also 
related to students expecting to graduate from college, not 
just high school, but also college. And finally, higher 
culture-based education use, in our fancy, nested, multi-level 
hierarchical linear models, controlling for all kind of other 
explanatory factors, is related to student academic success in 
both reading and math test scores. That is kind of what 
everybody wants to hear. It is a smaller but statistically 
significant effect in the positive direction. For Native 
students, that is the right direction. So we want to build on 
those successes.
    Put very simply, research shows that culture in the 
classroom matters. We need more funding and support at the 
Federal and State levels to promote culture-based education, 
rigorous and relevant culture-based education. Because these 
investments have demonstrable benefits for Native students. As 
we like to say in our State, what is good for Native students 
is good for all students.
    Mahalo.
    [The prepared statement of Dr. Kanaiaupuni follows:]

  Prepared Statement of Shawn Kanaiaupuni, Ph.D., Division Director, 
                           Kamehameha Schools

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mahalo. Thank you very much for your 
testimony.
    Ms. Harcharek, you mentioned that the Inupiaq learning 
framework, in particular you mentioned that as the foundation 
for the development of an academic curricula and assessment 
processes. Can you elaborate on how the Inupiaq learning 
framework was developed and how the school district trains its 
teachers in this framework?
    Ms. Harcharek. Thank you, Senator.
    The Inupiaq learning framework came about as a result, as I 
mentioned earlier, of going to the people. We initially 
traveled to each of the communities and said to the people, we 
have imposed our school system on our people for far long 
enough. It is now time for us to hear from you what it is your 
expectations are of our school. And what we heard them say is 
that they wanted to see themselves in school.
    As a result of that, and they even wanted to see Native 
foods served in school in the lunch program. So we heard a wide 
range of suggestions, ranging from curriculum content to food 
that is served in schools to the aesthetics of the building.
    In terms of the content piece, we again convened a group of 
people from across the district, comprised of elders, and we 
included people who were in the younger age range, the young 
parents, and worked them through a process that lasted over a 
year, asking them what it is they believe the 18 year old well-
grounded, well-educated young person looks like today. And they 
arrived at quite a list, as you can imagine.
    It is from that list, then, we derived what we are 
referring to as the Inupiaq learning framework. It is divided 
into realms that are realms important to the Inupiaq world 
view. And from that, then, we have proceeded into the process 
of a curriculum mapping and alignment process.
    At first, when we present the Inupiaq learning framework to 
our cadre of teachers, 98 percent of whom, of course, at not 
from the North Slope, who are from the lower 48, we knew we had 
the daunting task of first of all, convincing them that this is 
the way to go, and secondly, to provide them with the level or 
comfort that they need in order to be able to effectively 
utilize the Inupiaq learning framework. We have done that 
mainly through in-servicing.
    The next piece in the plan is to, rather than in-service 
teachers, where they are passive receivers of information, we 
are going to again engage the community in a dialogue about 
different facets of the Inupiaq learning framework, and have 
the teachers surrounding them so that the teachers are learning 
from the community people. We continue to search for other ways 
to do the training and have tried a variety of different ways, 
many of which haven't worked. So we are hoping that this new 
way of bringing in the community into the conversation will aid 
us in that process. Not only will it train teachers, but it 
will also continue to engage the community in the education 
process.
    The Chairman. Thank you very much for that response.
    Dr. Beaulieu, your testimony points to several best 
practice Native language programs throughout the United States. 
To what extent have Native communities been able to utilize 
these so-called best practice programs to develop their own 
language programs? Are there ways to expand the success of 
these best practice programs to new and emerging Native 
language programs?
    Dr. Beaulieu. Senator, Mr. Chairman, yes, there is. One of 
the issues we have, of course, with Native language programs, 
immersion and others, is that there is a lot of need and little 
resources out there. It is very difficult to focus on attempts 
to develop approaches and to bring through to fruition.
    There are many good examples, and I think the Department of 
Education study that I alluded to that Dr. Teresa McCarty 
submitted is an effort to try to bring together a listing of 
what are those best practices, best practices for school 
programs where the home language is other than English or 
programs that emphasize language revitalization immersion.
    Aside of documenting the results of those schools, which 
are all similar to the ones just reported by Shawn, is that 
they also indicate what is the strong program, how do you 
define a strong program, what do you need to work on. That is 
encouraging, to have that kind of information to develop 
programs.
    There are opportunities, I believe, in the Indian education 
statutes, to begin to look at ways of doing more comprehensive 
approaches to language and culture education in schools which 
educate Native American students. There are areas of the 
statute which are under-utilized or not used, which could show 
some potential.
    There is a requirement in the Title VII formula grant 
program that talks about the development of a comprehensive 
Indian education plan, both local and State, that responds to 
the assessed needs of American Indian students regarding their 
special education and culture-related needs, and to align them 
with State and local education plans. We don't do that. I think 
if we did, I think that there would begin to be an ability to 
focus on language and culture education.
    We know from the research literature that the school-wide 
programs are more effective than programmatic interventions. We 
also know the social linguistic approaches are more effective 
as well. We need better dissemination of results and we need 
more opportunity to accomplish good programs. Thank you.
    The Chairman. Thank you for your response.
    Dr. Kanaiaupuni, can you describe some of the gains that 
are being made by Native Hawaiian focused charter schools, and 
how they are using culture-based education to reach children 
who may have otherwise fallen through the cracks in the regular 
school system? Is there data showing that progress is being 
made for these children in the standard math and reading 
categories using this approach?
    Dr. Kanaiaupuni. Thank you, Mr. Chairman.
    Yes, there is data. Our organization supports 17 culture 
based charter schools in our State. So we are very committed to 
collecting and gathering and assessing data, so that we can 
continue to make good, wise choices in how we invest our 
monies. And supporting those schools in an environment of very 
scarce resources for charter schools in our State has been 
paramount to our leadership.
    Knowing a little bit about the context matters, as you 
suggested. The proportion of low income students in our 
culture-based charter schools is about two-thirds, so one out 
of every three. In some schools, 100 percent are low income 
students. Also, in the schools that are middle and high 
schools, the students tend to come in several grade levels 
below the entering grade that they are starting in a charter 
school. So there is sometimes an academic gap to make up for in 
charter schools.
    What we have seen is some amazing progress. These are 
community-based schools that employ culturally-relevant, 
rigorous learning. So they engage students right off the bat. 
Eighty percent of our Hawaiian focused charter schools using 
culture-based education met or exceeded proficiency in reading 
on our State assessment scores last year. Math is an area of 
concern for the entire State and Nation. Of the schools that 
did not meet proficiency on last year's State assessment in 
math, 80 percent of them made improvements in their gains (so 
moving kids from starting point A to ending point B in a single 
year) of between 6 and 15 percent. According to our State DOE, 
9 percent is exceeding expectations in the amount of a gain in 
a single year. That is what our charter schools are doing.
    The other really important thing to us is far beyond math 
and reading test scores. It is actually about graduation and 
kids making it through high school on a timely basis. As I 
mentioned before, 90 percent of our students in culture-based 
charter schools are graduating on time from high school, which 
is an amazing feat. Many of them go on to college. And many of 
the charter schools are very innovative on building that 
college credit momentum by starting college in the last year of 
high school, while they are at the culture-based school.
    We also have very high percent of family involvement. That 
is a leading indicator, again, of achievement, of math and 
reading test score achievement for students. And students are 
seven times less likely to be chronically absent in culture-
based education in charter schools. So those are some of the 
statistics that I can share with you today. Thank you.
    The Chairman. Thank you very much.
    Jana Harcharek, how has the focus of the North Slope 
Borough School District shifted over time with respect to 
teaching Inupiaq language and culture? What best practices can 
you share with other public school districts who want to 
embrace culture-based curriculum development and 
implementation?
    Ms. Harcharek. Thank you, Senator.
    I believe that initially, as I mentioned in my testimony, 
the vision was there to have local control over our educational 
system operate in such a way that we also had local control 
over content. That dream hasn't been realized. And it hasn't 
been until recently that we have put a concerted effort into 
making that happen.
    So historically, what our district was doing was 
perpetuating the assimilationist methodology. And so the major 
shift has been in shifting to one of embracing the culture and 
the language of the people. The results we are seeing initially 
with the implementation of some of our culture-based units have 
been absolutely phenomenal. We have students who are wanting to 
come to school, we have teachers who are using our culture-
based units as reward for completing tasks in other areas, we 
have students who don't want to put their reading texts down 
that accompany the culture-based units because they are so 
interested in the stories. We have students saying, we want 
more of this, we have parents saying, we are learning about our 
own culture from our kids, things that we never knew before.
    So my response to that has been, the shift has been in one 
of not continuing to shut out who we are in our schools, but 
rather embracing it and using it as a mechanism by which to 
promote and increase the academic achievement of our students.
    In terms of best practices and sharing those, I am very 
proud to share with you today a partnership that we have had 
with our regional corporation, Arctic Slope Regional 
Corporation, in the development of a unit that teaches about 
the history of our regional corporation. So the unit is 
designed to bring kids to an understanding about how the land 
claims movement happened up through how a corporation can be 
used as a tool to advance the Inupiaq agenda. It is through 
these kinds of partnerships that I believe we can really 
strengthen the responsibility that we all share, not only as 
individuals, but as entities in our communities, for education.
    Our hope is that we continue to build on these partnerships 
and through these partnerships and the sharing of resources, 
really, if you can imagine a school, or our school district, my 
dream for our district is that there will be one day when we 
don't have to order the textbooks that are produced in massive 
quantities here in the lower 48 that really, by omission, do 
our kids such an injustice. It is through the sharing of these 
kind of methodologies, especially in curriculum development, 
that I think we can make great inroads.
    A suggestion was made to me this morning in Senator 
Murkowski's staff that this is exactly the kind of thing that 
we need to do in all of our public schools in Alaska in order 
for us to understand the history of Alaska and the direction 
into which our future is leading us.
    The Chairman. Yes. And you did mention this, and I just 
want an answer to this one, you mentioned that during your 
time, you had to go to high school away from home. Now, how is 
that today? Do they go to high school at home?
    Ms. Harcharek. We can now say, we go to high school at 
home.
    The Chairman. Thank you very much.
    Dr. Beaulieu, what role does research play in developing, 
implementing and assessing the success of Native language 
programs?
    Dr. Beaulieu. It plays a great role, not only in terms of 
doing national studies and other things, it sort of attempts to 
document the success, because we need to document that success. 
But it also is extremely important to guide the development of 
schools. Typically that research is more focused on the school 
at hand, where you can do Research in the context of actually 
developing the school. So you develop the data that you need, 
where you can discuss and interpret that data within the school 
leadership and you can apply it where it matters. And you can 
document results over time.
    We find that that is a wonderful approach, of course, to 
improving schools. And then of course, sharing that result. We 
need research, we need to understand what works and to develop 
programs which are strong and can get the job done.
    So it is very important, both in terms of a national level 
and in terms of understanding the approaches that sort of 
generally work and then also more specifically, to guide school 
improvement. We need to document this particularly for the 
Senate and the Congress and others who have issues and need to 
know the extent to which these practices work. We have not been 
supported in that. I mentioned that in my remarks, that we 
haven't had Federal support, typically, to do that type of 
research. We have attempted to do that through the research 
agenda that President Clinton had required under the executive 
order and also President Bush had required in his iteration of 
the executive order on American Indian and Alaska Native 
education.
    But outside of a few small efforts that were initiated 
then, nothing has occurred since. We need that kind of support 
for that effort. Thank you.
    The Chairman. Thank you very much.
    Dr. Kanaiaupuni, I would say that Hawaii is so fortunate to 
have Kamehameha Schools support these charter school programs, 
which has been a big help, as you said. They are working with 
17 schools in Hawaii. Kamehameha is providing specific kinds of 
assistance and investment into the culture-based charter 
schools in Hawaii.
    Do you think the kinds of support you are offering these 
schools can be replicated around the Country? Are there 
additional supports that your data suggests could help to 
expand the success of these kinds of schools nationally?
    Dr. Kanaiaupuni. Thank you, Mr. Chairman.
    And thank you for your kind words about our support. We 
have, as I mentioned, done so in an environment with scarce 
resources and wanting to support our communities in educating 
Native students in particular. The things that I think could be 
taken into consideration to inform policy, to support culture-
based schools and language-based schools across the Nation 
include things like leadership development; teacher education 
and professional development for our culture-based and culture-
rich environments; and curriculum, instruction and assessment 
resources for our culture-based education environments.
    We need to support educational rigor, because a lot of what 
we found is that communities are creating their own environment 
in a dearth of not liking what they are seeing in a 
conventional DOE school. So communities are creating our own 
culturally relevant educational systems.
    So supporting those efforts in systemic ways through 
policies, through funding, through legislation, is highly 
desirable, in particular around the areas that I mentioned, 
leadership and teacher development, highly-qualified teachers--
in culture-based settings. Curriculum instruction and 
assessment, especially for Native language-based schools that 
always struggle with different assessment needs.
    And further research, of course, to understand how we can 
achieve the highest quality in educational rigor through 
culture-based education. Those are just some of the ways.
    We also support our schools, most recently, with an effort 
to support all of them, all 17, through the accreditation 
process. I am pleased to report that we have one that has 
already been accredited, on the big island of Hawaii, and then 
five more that are all Hawaiian-language based have just been 
accepted for WASC candidacy last month, and will go through the 
process next year.
    So really important, systemic support for culture-based 
education in general. I hope that helps. Thank you.
    The Chairman. I thank all of you on our second panel very 
much. Your response, without question, again, will be helpful 
to us in trying to improve the Native American education 
programs throughout our Country. That is the whole intent of 
all of this. This Committee will continue to pursue that and 
craft a bill that can continue to help you in your work as you 
work with Native education in your areas.
    Again, I want to thank our witnesses for participating in 
today's hearing. I want again to thank you for your commitment 
that you are demonstrating to Native education and for 
exemplifying the principle of kulia i ka nu`u, striving for 
excellence.
    I will remind everyone that the record is open. Again, we 
want to hear from you if you have feelings that you want to 
express. We will be open for written testimony for two weeks. 
So if you have others who may be interested in doing that, 
please tell them they have two weeks to do it. We look forward 
to all the responses we can get to put this together.
    So I want to tell you, I really enjoyed this hearing, to 
hear how you have done and to know that what you have been 
doing has been working. I still believe that teaching young 
people through their cultures and traditions helps them to 
learn well, and it takes their interest. Because I think that 
culture and traditions are the roots of their lives and if you 
force or cut that root off, somehow it interferes with the 
natural growth and progress of our Native people.
    We have so much to work for, and I am so delighted and feel 
it a privilege to be working with you on this and with you, I 
look forward to trying to do a great job legislatively for the 
Native education of our Country. This hearing is adjourned.
    [Whereupon, at 4:15 p.m., the Committee was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Mr. Chairman, thank you for holding this oversight hearing on 
expanding the success of Native Language and Culture-Based education. I 
would also like to extend a special welcome to Ms. Namaka Rawlins from 
the University of Hawaii Hilo College of Hawaiian Language; Mr. Alvin 
Parker, Principal of Ka Waihona o ka Na`auao public charter school; and 
Dr. Shawn Kanaiaupuni, Division Director with Kamehameha Schools. Thank 
you for taking time out to travel to Washington D.C. and personally 
deliver your testimony in front of the Committee today.
    In Hawaii, back in 1896 education through the Hawaiian language was 
outlawed in both public and private schools. There were strict 
punishments for those who taught or spoke Hawaiian in school. This led 
to a rapid disappearance of the Hawaiian language, in fact by 1984 
there were only a few elders and a tiny population on the island of 
Niihau that were fluent speakers of the Hawaiian language. This is one 
example of the delicate conditions indigenous native languages face 
every day.
    The story of the Hawaiian language did not end in 1984 but it was 
the start of a new beginning. After many long discussions with the 
elders and the Native Hawaiian community the importance of perpetuating 
the language became imminent and the course was to re-establish 
Hawaiian medium education schools. This was the beginning of Aha Punana 
Leo a preschool that is based upon the language nest model where 
students are taught solely in their native language and culture.
    Today I am so proud to say that the Hawaiian language still lives. 
In Hawaii today a student can choose to be entirely taught through the 
Hawaiian language from the preschool level all the way up to a doctoral 
level. Adding language or culture to the education of Native students 
not only improves their test scores but it provides a sense of 
belonging a sense of self-worth that they might not get in a 
traditional educational setting.
    I understand that while this has worked for the Hawaiians it might 
not work for all the other indigenous native peoples across the 
country. I also recognize that there have been many challenges along 
the way. My hope is that you could work together, share with each 
other, and speak with one voice, so that you can bring a fundamental 
piece of your culture back to your people.
    I look forward to continuing this discussion and working with my 
colleagues on this most important issue.
                                 ______
                                 
               Prepared Statement of the Cherokee Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of Colin Kippen, Executive Director, National Indian 
                         Education Association

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of Taffi U`llel Sheather-Wise, Executive Director, 
                     Kanu o ka Aina Learning `Ohana
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 ______
                                 
   Prepared Statement of Florian Tom Johnson, Principal, Rough Rock 
                           Community School 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
